<html>
<title> - THE SECURITY APOLITICAL AND CRISIS IN BURUNDI</title>
<body><pre>[Senate Hearing 114-346]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 114-346

              THE SECURITY AND POLITICAL CRISIS IN BURUNDI

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 9, 2015

                               __________

       Printed for the use of the Committee on Foreign Relations
       
       
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]       


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
      
                      U.S. GOVERNMENT PUBLISHING OFFICE
21-369 PDF                     WASHINGTON : 2016                      

________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2443544b64475157504c4148540a474b490a">[email&#160;protected]</a>  
               
               
               
               COMMITTEE ON FOREIGN RELATIONS         

JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 BARBARA BOXER, California
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  JEANNE SHAHEEN, New Hampshire
CORY GARDNER, Colorado               CHRISTOPHER A. COONS, Delaware
DAVID PERDUE, Georgia                TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
RAND PAUL, Kentucky                  TIM KAINE, Virginia
JOHN BARRASSO, Wyoming               EDWARD J. MARKEY, Massachusetts


                  Todd Womack, Staff Director        
           Jodi B. Herman, Democratic Staff Director        
               Chris Ford, Majority Chief Counsel        
            Margaret Taylor, Minority Chief Counsel        
                    John Dutton, Chief Clerk        

                              (ii)        


                          C O N T E N T S

                              ----------                              
                                                                   Page

Flake, Hon. Jeff, U.S. Senator from Arizona......................     1

Markey, Hon. Edward L., U.S. Senator from Massachusetts..........     2

Nimuraba, Sixte Vigny, Dean's Assistant and Director of Violence 
  Prevention Program, The School for Conflict Analysis and 
  Resolution, George Mason University, Arlington, VA.............    28
    Prepared statement...........................................    30
    Responses to Questions for the Record Submitted to Sixte 
      Vigny Nimuraba by Senator Benjamin L. Cardin...............    48

Siegle, Dr. Joseph, Director of Research, Africa Center for 
  Strategic Studies, National Defense University, Washington, DC.    16
    Prepared statement...........................................    18

Thomas-Greenfield, Hon. Linda, Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State, Washington, DC......     3
    Prepared statement...........................................     5
    Responses to Questions for the Record Submitted to Assistant 
      Secretary Linda Thomas-Greenfield by Senator Benjamin L. 
      Cardin.....................................................    43

Vircoulon, Thierry, CentraL Africa Project Director, 
  International Crisis Group, Nairobi, Kenya.....................    23
    Prepared statement...........................................    24

                             (iii)        

  

 
             THE SECURITY APOLITICAL AND CRISIS IN BURUNDI

                              ----------                              


                      Wednesday, December 9, 2015

                                        U.S. Senate
 Committee on Foreign Relations Subcommittee on Africa and 
                                       Global Health Policy
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 2:30 p.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Jeff Flake, 
chairman of the subcommittee, presiding.
    Present: Senators Flake [presiding], Markey, Cardin, and 
Coons.

             OPENING STATEMENT OF HON. JEFF FLAKE, 
                   U.S. SENATOR FROM ARIZONA

    Senator Flake. This hearing of the Senate Foreign Relations 
Subcommittee on African and Global Health will come to order. I 
want to take a moment to thank our witnesses for arranging 
schedules to be here today and for your contribution to this 
hearing.
    Today's hearing will focus on the political and security 
crisis in Burundi, where violence is increasing and instability 
is growing. Mass arrests, high-profile assassinations, and the 
killing of more than 200 people have caused at least 220,000 
Burundians to flee the country.
    President Nkurunziza's decision to run for a third term in 
office is widely viewed as a catalyst for this crisis, which 
has splintered his own party and hardened the line between his 
supporters and those who oppose him. But the roots of today's 
crisis precede the most recent elections in Burundi.
    Today, we will examine Burundi's history, the Arusha 
Accords that ended its civil war, and how we can go back to the 
spirit of that agreement to end the conflict.
    This particular part of the world has borne witness to many 
mass atrocities. Obviously, Burundi's 12-year civil war is 
among them. As we look to what has contributed to the breakdown 
of governance in Burundi today, it is important to pay 
attention to the ethnic underpinnings of this and previous 
conflicts.
    Understanding the role that other actors in the region are 
playing is critical to understanding how to stop the violence 
in Burundi. I look forward to hearing from our witnesses on how 
the other actors are influencing the conflict there, perhaps 
for their own benefit, and what options are available to the 
United States to weigh in.
    Unfortunately, President Nkurunziza is not the only leader 
of an African nation with the desire to hang on to his seat 
longer than is permitted. In the Great Lakes region alone, 
there are several elections coming up next year where the 
current leaders may well seek reelection through various means.
    I look forward to hearing from our witnesses, hear what 
they think about the current crisis here, what it portends for 
these elections, and if we can expect similar outcomes from 
those who choose to stay in power longer. If so, how will these 
different crises intertwine? What will be the regional 
implications? And lastly, again, what should the United States 
be saying about these elections?
    The bottom line is that the violence in Burundi needs to 
stop. The stakes are simply too high for these events to 
escalate.
    With that, I will turn to recognize the ranking minority 
member on this committee, Senator Markey, for any comments you 
might have.

              STATEMENT OF HON. EDWARD J. MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman. Thank you so much 
for having this very important and timely hearing. It is a 
critical moment for Burundi, the Great Lakes region of Africa, 
as well as for the wider African and international communities.
    As President Obama said last July when Chairman Flake and I 
traveled with him to Africa, the continent's progress is 
impressive. It is one of the fastest growing regions in the 
world with a middle class projected to grow to more than 1 
billion consumers. Africa is moving fast toward a better 
future, with millions reaching for opportunities that did not 
exist just a few years ago.
    It is important to keep this larger picture in mind as we 
focus today on Burundi, a country that has experienced deep 
political division and escalating political violence since last 
spring.
    Since the Arusha Accords ended Burundi's civil war in 1993, 
the country has continued to face challenges, but its politics 
have been relatively free of violence. While the international 
community and the United Nations have played a critical role in 
this process, all of the credit for the advances up until last 
spring rightly go to the Burundian people and its leaders in 
government, opposition, and civil society, who consciously 
worked toward national harmony.
    With the political turmoil that began last spring, it has 
become apparent that the work of over 20 years could come 
undone unless all of the leaders of Burundi take seriously 
their solemn duty to find common ground, to seriously negotiate 
ways to accommodate one another's legitimate interests, and to 
guarantee that the security and fundamental rights of all of 
Burundi's people are protected.
    The people of Burundi have suffered enough. A grinding 
poverty is accompanied by ongoing turmoil, including mass 
arrests, several high-profile assassinations, and over 200 
reported extrajudicial killings since April. At least 210,000 
Burundians have now fled into neighboring countries. An armed 
conflict in Burundi could draw in neighboring countries and 
non-state actors elsewhere in the conflict-torn Great Lakes 
region. The consequences in terms of Burundi and the region 
could be devastating.
    We are committed to helping Burundi change course, to turn 
away from violence, and for political rivals to sincerely 
negotiate with each other and make common cause for the good of 
all of the people of Burundi. That is why this hearing is so 
important.
    And I thank you, Mr. Chairman, for calling for it. We very 
much appreciate the witnesses' willingness to join us today, 
and I look forward to hearing your testimony.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you, Senator Markey.
    The only witness in this first panel is Assistant Secretary 
Thomas-Greenfield.
    Thank you for being here. We know that you are busy. We 
know how much you travel to the region and the time you put in. 
We appreciate you being here. Obviously, your entire comments 
will be made a part of the record. Please, if you can keep it 
close to 5 minutes, we will have time and have the next panel 
as well. We look forward to your testimony.
    Assistant Secretary?

STATEMENT OF HON. LINDA THOMAS-GREENFIELD, ASSISTANT SECRETARY, 
     BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                        WASHINGTON, D.C.

    Ms. Thomas-Greenfield. Thank you very much, Chairman Flake 
and Ranking Member Markey, for the opportunity to testify 
before you today on Burundi.
    As you noted, the situation in Burundi is very worrisome, 
and the stakes are very high. The Department of State and the 
Bureau of African Affairs, in particular, greatly appreciate 
the bipartisan support we continue to receive for our work, our 
Embassies, and our people, who spend every day striving to 
promote U.S. national security, foreign policy, and economic 
interests on the African continent.
    In Central Africa, we have focused on our core values: 
strengthening democratic institutions, spurring economic 
growth, advancing peace and security, and promoting opportunity 
and development.
    Occupying significant attention over the past year, 
however, is Burundi. Burundi has sadly become a cautionary tale 
for the region about how a leader who will do anything to stay 
in power can undermine a decade of peace and post-conflict 
reconciliation.
    President Nkurunziza's pursuit of non-inclusive, 
nonconsensual elections, as characterized by the African 
Union's October 17 communique, sparked the current crisis. His 
decision also clearly violated terms of the 2000 Arusha 
agreement that led to the end of the Burundian civil war and 
became the country's foundation for governance, peace, and 
security.
    Since the discredited elections last summer, the crisis in 
Burundi has worsened, with Nkurunziza in isolation and his 
government taking an increasingly hard line against any form of 
perceived opposition or critique, even from within the ruling 
party ranks.
    A daily pattern of retaliatory attacks between security 
forces and armed elements of the opposition has continued for 
months. The repression and violence has forced over 220,000 
Burundians to flee the country over the last 8 months, and the 
U.N. Office of the High Commissioner of Refugees has documented 
at least 240 killings of individuals in Burundi in the same 
time frame.
    In response to these troubling events, we have pursued an 
aggressive three-pronged strategy to prevent mass violence.
    First, we are directing pressure at the Government of 
Burundi and armed opposition to step back from increasingly 
violent actions as well as rhetoric.
    Second, we are accelerating the launch of a credible 
dialogue process under African leadership to find a political 
solution.
    Third, we are reaching out to the region and international 
community to encourage their support while supporting regional 
contingency planning by the A.U. in case the violence worsens.
    We believe that our pressure on and direct engagement with 
the Government of Burundi and with opposition leaders, as well 
as our broader outreach to the region and international 
community, has positively impacted the situation. It has done 
so both by helping to stave off what we feared could have been 
wider spread violence and by providing a window to press for 
regional efforts to support a political solution through 
internationally mediated dialogue. But that window cannot last 
indefinitely.
    The underlying calculus of those in the government that 
they will use all means necessary to retain power has not 
changed. In addition to our suspension of in-country training 
support for Burundian military and law enforcement, and the 
withdrawal of AGOA trade benefits effective January 2016, 
President Obama issued an executive order on November 23 
imposing economic sanctions and a travel ban on four 
individuals, two from the government side and two of the May 
coup plotters.
    The implementation of a sanctions regime underscores the 
seriousness with which we view the severity of the crisis and 
demonstrates the President's commitment to using all the tools 
available to discourage violence and encourage a political 
resolution. We will not hesitate to add additional individuals 
to the list.
    We are in daily contact with members of the Burundi 
Government and opposition, as well as regional leaders. Our 
senior leaders, including President Obama as well as Secretary 
Kerry, have engaged with stakeholders in Burundi and throughout 
the region with a topline message to refrain from violence and 
pursue dialogue.
    In November, President Obama delivered a video message 
directly to the Burundian people, in which he called on all the 
country leaders to seek a peaceful solution for the country 
through dialogue. This was very well-received in Burundi.
    Special Envoy Perriello has spent the bulk of the past 3 
months in the region and in Europe, including an emergency 
deployment to Burundi to deter the launch of the government's 
planned security operation in early November, which we feared 
could have instigated much more widespread violence.
    Ambassador Liberi and our Embassy staff worked around the 
clock under intense circumstances to maintain crucial lines of 
communication and provide a voice for peace and human rights.
    We cannot afford further delay of the dialogue process 
without risking an escalation in repression and violence. With 
the process currently entrusted to Ugandan President Museveni 
on behalf of the East African Community, we continue to hope to 
see dialogue initiated in the very near future. If it is not, 
and the crisis deteriorates further, possibly into full-scale 
war, I fear that President Museveni and the EAC could end up 
being partially blamed, given the lengthy delays in getting a 
process started.
    We have encouraged the EAC leaders, as well as those in the 
broader region, to support peace and dialogue, and to ensure 
that this crisis does not become another protracted regional 
conflict dominating the continent's time and resources. We 
strongly support the commencement of dialogue, active A.U. 
leadership, and the need for a full-time mediator.
    At the same time, other regional leaders are contemplating 
efforts to extend their own terms in office beyond 
constitutional limits. President Obama articulated the U.S. 
position very clearly in Addis Ababa when you both were there 
in July when he said that Africa's democratic progress is put 
at risk when leaders refuse to step aside at the end of their 
terms.
    Leaders who try to change the rules to stay in power solely 
for personal gain risk instability and strife in their 
countries. We are seeing this play out in Burundi and the 
Republic of Congo as well as elsewhere.
    Our policy position enjoys overwhelming support across 
Africa. This is in the words of Secretary Kerry a decisive 
moment for democracy in Africa. The steps that we take now to 
encourage peaceful transitions of power may encourage other 
leaders in the region from following Burundi's path and 
encourage them to make the right decision for their countries 
and their people.
    Senator Flake, Ranking Member Markey, and members of the 
subcommittee, I want to thank you again for holding this 
hearing and giving us the opportunity to brief you on the 
situation in Burundi. I hope the information is useful to the 
subcommittee. I have submitted a much longer version of my 
testimony for the record, and I am happy to answer your 
questions.
    [The prepared statement of Ms. Thomas-Greenfield follows:]


   Prepared Statement of Assistant Secretary Linda Thomas-Greenfield

    Thank you very much Chairman Flake, Ranking Member Markey, and 
other Members of the Committee for the opportunity to testify today on 
the many challenges facing Burundi.
    The Department of State and the Bureau of African Affairs in 
particular greatly appreciate the bipartisan support we continue to 
receive for our work, our embassies, and our people who spend every day 
striving to promote U.S. national security, foreign policy, and 
economic interests on the African continent.
    In Central Africa, we have focused on strengthening democratic 
institutions, spurring economic growth, advancing peace and security, 
and promoting opportunity and development. Occupying significant 
attention over the past year, Burundi has sadly become a cautionary 
tale for the region about how a leader who will do anything to stay in 
power can undermine a decade of peace and post-conflict reconciliation.
    The current crisis in Burundi began more than a year ago when the 
Burundian government began an increasingly repressive crackdown against 
journalists, civil society, and all political opponents. In the months 
leading up to his decision in April 2015 to stand for a third 
presidential term in Burundi President Pierre Nkurunziza's government 
was responsible for increasingly harsh repression, intimidation, and 
violence towards legitimate political opposition, independent media, 
and anyone within his own party who dissented against this plan. 
Credible local and international human rights groups have documented a 
harrowing number of cases of torture and extra-judicial killings over 
the past two years. Nkurunziza's pursuit of ``non-inclusive, non-
consensual elections''--as characterized by the African Union's October 
17th communique--after a decade of irresponsible governance and failure 
to alleviate poverty in Burundi--sparked the current crisis. His 
decision to pursue a third term also clearly violated terms of the 2000 
Arusha Agreement which led to the end of the Burundian Civil War and 
became the foundation for relative peace and security over the past 
decade. Furthermore, the presidential elections, held in late July, 
were widely viewed as not credible, not fair, not free, and not 
transparent.
    Since the election, we have seen the crisis in Burundi only 
worsen--with the Nkurunziza government taking an increasingly hard line 
against any form of perceived opposition or critique, even if it comes 
from within the ruling party's ranks. The crisis has for months been 
characterized by a daily pattern of retaliatory attacks between 
security forces and armed elements of the opposition or those perceived 
to be opponents of the ruling party. More recently, this has included 
beheading and disembowelment of victims. The UN Office of the High 
Commissioner for Human Rights (OHCHR) has documented at least 240 
killings of individuals in Burundi since April. Members of the ruling 
party, including public security forces, have used extreme violence 
with impunity and targeted the most vulnerable members of the country's 
population, namely those trying to flee the country as refugees. The 
government has not taken action to seriously investigate credible 
allegations of human rights violations and abuses by members of the 
ruling party youth wing, known as the Imbonerakure, the Burundian 
National Police, and the National Intelligence Service, nor has the 
government taken action to hold these same groups accountable.
    The repression and violence have forced over 220,000 Burundians to 
flee into neighboring countries since April, when Nkurunziza announced 
his decision to pursue a third term. Many of those attempting to flee 
have reported violent confrontations by party militias and police while 
en route. Since the crisis began in April 2015, amorphous groups of 
armed opposition actors have also carried out violence against the 
security services and key targets in Bujumbura, and in Burundi's border 
areas, further exacerbating the conflict.
    Inflammatory rhetoric used by President Nkurunziza and the Senate 
President threatening a disarmament operation in November stoked fears 
of greater violence throughout the country. I will discuss this later, 
but we firmly believe that the consequent outpouring of international 
messaging and pressure prevented the November 8th ultimatum from being 
the start of wider-spread violence.
    At the same time, some elements opposed to President Nkurunziza 
have conducted targeted attacks on government officials, police 
officers, and civilians. These actions also threaten to escalate the 
situation and spark more widespread violence. While Nkurunziza's 
cynical attempts to treat all of those opposed to his actions as coup 
plotters must be rejected, it is equally important for those opposition 
members who have taken up arms to renounce violence and fully commit 
themselves to reaching a political consensus for the way forward.
    As this crisis has unfolded, we have been actively engaged with 
Burundian and regional stakeholders, donor partners, and other allies 
in preventing Burundi from returning to war. We believe that our direct 
engagement with the Government of Burundi and opposition members, as 
well as our broader outreach to the region and international community, 
has impacted the situation by helping to hold off wider-spread violence 
and giving us a window to support regional efforts to find a political 
solution through internationally-mediated dialogue. But that window of 
time will not last indefinitely. The underlying calculus of the 
government - that it will use all means necessary to retain power--has 
not changed.
    Since the discredited election and an increase in violence, we have 
pursued an aggressive three-pronged strategy to prevent mass violence 
by: 1) directing pressure at the Government of Burundi and armed 
opposition to step back from increasingly violent action; 2) 
accelerating the launch of credible peace talks under African 
leadership to find a political solution; and 3) supporting regional 
contingency planning by the AU in case violence worsens.
    We are in daily contact with the Burundian government and 
opposition, and regional leaders. Our senior leaders, including 
President Obama, Ambassador Rice, Secretary Kerry, Ambassador Power, 
Assistant Secretary Malinowski, and I have called or met with 
stakeholders throughout Burundi and the region with the top line 
message to refrain from violence and to pursue dialogue. For example, 
earlier in November, President Obama delivered a video message directly 
to the Burundian people calling on the country's leaders to seek a 
peaceful solution for the country through dialogue. The video was very 
well received by the region, specifically the appeal to all for non-
violence and the recognition of the military's professionalism and 
restraint thus far. President Obama has also reached out to regional 
leaders such as South African President Zuma to call for calm and press 
for a dialogue that can bring about a long-term solution to the crisis. 
Special Envoy Perriello has spent the bulk of the past three months in 
the region and Europe, including emergency deployment to Burundi to 
deter the launch of Operation Kora, a government-planned public 
disarmament campaign, in early November. Ambassador Liberi and our 
Embassy staff have worked around the clock under intense circumstances 
to maintain crucial lines of communication and provide a voice for 
peace and human rights.
    Since the beginning of the electoral cycle, we have called on 
Burundians and regional actors to play constructive roles and to reject 
violence before, during, and after the presidential elections. Our 
messaging has targeted the government and its supporters for unlawful 
violence against peaceful protestors, the participants in the attempted 
illegal seizure of power last May, and any others who have sought or 
are seeking to use violence to advance their agenda.
    We have also joined our donor partners in increasing the costs for 
the regime and armed opposition for the use of repression and violence. 
We suspended in-country delivery of the Train and Equip mission of our 
Africa Contingency Operations Training and Assistance peacekeeping 
program as well as provision of assistance under the African Military 
Education Program. We also suspended International Law Enforcement 
Academy and Anti-Terrorism Assistance training that had been provided 
to Burundian law enforcement agencies. In early November we announced 
that AGOA trade preference benefits will be withdrawn from Burundi 
effective January 1, 2016.
    More recently, President Obama announced an Executive Order on 
November 23rd, imposing economic sanctions and a travel ban on four 
individuals, two officials within the government and two of the May 
coup plotters. The establishment of a sanctions regime underscores the 
severity of the crisis and the President's commitment to using all 
tools available to pressure Burundian stakeholders to resist violence 
and seek a political resolution. With the sanctions regime in place, we 
will not hesitate to add additional individuals to the list, including 
those aiding and abetting individuals already sanctioned. We continue 
to assess whether to designate additional individuals or entities for 
sanction under the Executive Order.
    It heartens me to see the Burundian people continue to reject 
attempts to turn the ongoing political crisis into an ethnic conflict. 
This crisis is first and foremost a political one, driven by a break 
within the ruling party over Nkurunziza's insistence in staying in 
power. While we remain vigilant about any attempt to turn this crisis 
into an ethnic conflict, it is important to remember that until the 
advent of this crisis, Burundi was considered a success story in 
overcoming ethnic division. The integration of the military and civil 
society are models of post-conflict reconciliation, and have remained a 
strong, but fraying bulwark against efforts to divide and inflame. The 
outcome of this crisis will determine whether the youth in Burundi, 
which make up the majority of the population, remain a relatively post-
ethnic generation, or whether ethnic and political divides are locked 
in for more decades.
    The best route for resolving this crisis remains an 
internationally-mediated dialogue amongst all Burundian stakeholders 
that is hosted outside of Burundi so all stakeholders can safely 
attend. Members of the East African Community (EAC) entrusted Ugandan 
President Museveni back in July to facilitate such a dialogue, and our 
top diplomatic priority is accelerating the start of this process, 
whether in Kampala, Addis, or Arusha. Each day without credible peace 
talks is read as a permission slip for the government or the opposition 
to escalate repression and violence. We simply cannot afford further 
delay, and that is our top message to the region. If war breaks out 
before the dialogue starts, the EAC could end up being partially blamed 
for the delay in starting a dialogue.
    The very existence of talks, even if they falter, would release 
pressure and give the international community and the region a focal 
point for diplomatic pressure on all sides. We continue to reach out to 
President Museveni, the African Union, and other EAC leaders to press 
them to immediately convene a dialogue. We have made known that we are 
ready to support the dialogue, including through the international team 
of envoys as observers. We strongly support active AU leadership and 
the need for a full-time mediator.
    While we continue to strive for a political solution, we are urging 
our UN and AU partners to undertake contingency planning for the worst 
case scenario. We believe the best and most viable option would be an 
AU-mandated regional force, possibly with the East African Standby 
Force. We are in regular contact with the AU and made clear our 
readiness to help should the situation call for regional, multi-lateral 
intervention.
    We continue to be seized by this crisis, and are working with the 
EAC, AU, EU, UN and others. Special Envoy Perriello plans to join the 
EU, AU and UN Envoys for the Great Lakes Region of Africa for a visit 
to Burundi and its neighbors later this month, as well as to Addis and 
Kampala to press the urgency of talks.
    Despite our best efforts, we recognize that more must be done to 
ensure that Burundi can exit the path of violence and shift toward a 
peaceful settlement of the political crisis. The international 
community remains engaged, and we have been active in New York, Geneva, 
and bilaterally to keep Burundi on the international agenda. The UN 
Security Council is considering a visit to Burundi early in the new 
year. The Pope appealed for peace in Burundi during his recent visit to 
Africa. We will continue to encourage international pressure and 
visibility on the Burundi crisis so that all the interlocutors fully 
understand the stakes.
    The crisis in Burundi has also beset its neighbors with refugees 
continuing to cross into Tanzania, Rwanda, Uganda, and the DRC, and at 
times exacerbated existing regional tensions. We have encouraged all of 
the EAC's leaders and the broader region to support peace and dialogue 
and ensure this crisis does not become another protracted regional 
conflict that dominates the continent's time and resources.
    At the same time, other regional leaders themselves are 
contemplating efforts to extend their own terms in office beyond 
constitutional limits. President Obama articulated the U.S. position on 
this very clearly in Addis Ababa in July when he said that Africa's 
democratic progress is put at risk when leaders refuse to step aside at 
the end of their terms. He added that leaders who try to change the 
rules to stay in power solely for personal gain risk instability and 
strife in their countries, and we are seeing this play out in Burundi, 
in the Republic of the Congo, where a referendum was just held on a new 
constitution that would allow President Sassou N'guesso to run again by 
doing away with term limits provisions, and elsewhere. Our policy 
position enjoys overwhelming support across Africa, particularly from 
its youth.
    We have engaged directly with the presidents of this region 
approaching elections with that very same message. As Secretary Kerry 
wrote in an October 6 op-ed, this is a decisive moment for democracy in 
Africa. While each situation and each country context is unique, the 
steps that we take now to encourage peaceful transitions may help to 
prevent similar crises from occurring. The Burundi crisis is a 
cautionary tale for others in the region. No leader wants to be in 
Nkurunziza's situation, fearing for his life, watching his nation's 
economy plummet and his citizens flee the country. Others in the region 
still have an opportunity to avoid Burundi's path and make the right 
decision for their country and their people.
    Senator Flake, Ranking Member Markey, and Members of the 
subcommittee, thank you again for holding this hearing and giving me 
the opportunity to brief you on the steps we are taking to address the 
situation in Burundi. I hope this information is helpful to the 
subcommittee. I am glad to answer any questions you might have.


    Senator Flake. Well, thank you. I really appreciate this.
    As you know, some of the coalition of opposition leaders 
there have made it clear that no peace will be possible as long 
as Nkurunziza remains in power. He is committed and has no 
intention, it seems, of stepping down.
    What is going to give? First, is this just a ``who blinks'' 
here? Or is there going to be pressure from the EAC and others 
to break the logjam?
    Ms. Thomas-Greenfield. We are trying every way to encourage 
all of the regional partners to put pressure on President 
Nkurunziza as well as the opposition to go to the negotiating 
table to start a dialogue process.
    The EAC's early attempts did not work. They have turned the 
process over to President Museveni. Right now, our Special 
Envoy Perriello is in Uganda and hoping to encourage the 
Ugandans to step up their efforts in pushing for and starting 
the dialogue.
    But we are also putting pressure on the A.U. We have had a 
number of conversations with the A.U. In fact, the A.U. 
deployed a special envoy or a representative of the A.U. 
chairperson. That is President Boni Yayi of Benin. He was sent 
to Burundi yesterday. Unfortunately, his plane was not allowed 
to land. But their efforts will continue. We are hopeful that 
eventually we will get someone in.
    It is important that President Nkurunziza meet with the 
parties and start this process so that we can see some solution 
to what is happening there.
    Senator Flake. I would assume it is a little difficult for 
somebody like Museveni, who has been there since 1986 and is 
planning to run again, to speak with much credibility about 
leaving after the two terms that that Arusha Accords spells 
out.
    You talked about some of the sanctions we imposed on 
individuals, travel sanctions, other suspensions of other 
programs that we have. What additional leverage do we have, as 
far as the U.S. goes?
    Ms. Thomas-Greenfield. I think we can impose additional 
sanctions to the ones that we have already imposed. We also 
have additional leverage as it relates to other partners. We 
are working closely with the EU. They have just concluded what 
they refer to as Article 96 negotiations with the government. 
They were key contributors to budgetary support for the Burundi 
Government.
    Those discussions with the EU did not go well, which leads 
to the next step, which would be their ending their support for 
the government. We are working very closely with them as they 
move forward on those efforts, as well as supporting efforts to 
impose additional sanctions on additional individuals.
    Senator Flake. There are in the region other actors there 
and other influences on this. There have been reports that the 
Rwandan Government is secretly recruiting an army of Burundian 
refugees, presumably for the purpose of conducting some kind of 
armed insurgency inside Burundi.
    There was a letter to the editor in the Washington Post in 
November, written by Jeff Drumtra, a former U.N. official, who 
outlined what he saw there in those camps. If these reports are 
true, what is the State Department doing to press the Rwandan 
Government from doing this, from stepping up recruiting efforts 
like this, or to stop these recruiting efforts?
    Ms. Thomas-Greenfield. Sir, we have seen these reports, and 
we have had a number of conversations with the Rwandan 
Government to encourage them to investigate the reports. Any 
efforts that are being made within refugee camps on the borders 
of Rwanda should be stopped.
    We are encouraging the Rwandans as well to be more 
proactive in supporting the peace process. We have also had 
discussions with them to discourage any actions being taken by 
the Rwandan Government to support additional violence that 
might take place in the region.
    Senator Flake. Do you put stock in those reports yourself?
    Ms. Thomas-Greenfield. I have seen reports coming from 
UNHCR. We work closely with UNHCR, and I trust that if they are 
reporting this, they have seen the basis for making these 
reports and allegations.
    Senator Flake. Let us talk about the DRC for a minute. What 
pressures are coming from the DRC?
    Ms. Thomas-Greenfield. Again, additionally, we have had 
conversations with President Kabila over the past 2 years and 
probably even longer to discuss with him his efforts to change 
the constitution so that he might seek a third term.
    Fortunately, the constitution does not allow that change in 
DRC. I continue to be hopeful that he will make the right 
decision and not run for a third term and keep the country 
moving in the right direction and not turn back the very meager 
democratic gains that they have made over the past 10 years.
    Our special envoy has as well been to DRC on a number of 
occasions. Secretary Kerry was there last year as well. We 
continue to have conversations with the President on this 
issue.
    Senator Flake. What kind of border pressures and issues are 
there with the DRC?
    Ms. Thomas-Greenfield. I am sorry?
    Senator Flake. What kind of border pressures are there? 
With Rwanda, you have refugees going across and allegedly being 
used by the Rwandan Government. What are we seeing in terms of 
refugees?
    Ms. Thomas-Greenfield. We are seeing refugees cross into 
all of Burundi's neighbors. In addition to Rwanda, Tanzania has 
more than 50,000 refugees. DRC has a large number of refugees, 
as well as Uganda.
    Also, in the case of DRC, there are armed groups that are 
based in DRC. Some fear that those groups might participate in 
the violence in that country. So it is a very volatile 
situation along that border.
    Senator Flake. Some were surprised that Nkurunziza, when he 
was outside the country and there was a coup staged, that he 
was able to maintain or regain control when he returned.
    Is he in a stronger position now? If he is, is it just 
because the opposition is splintered so much?
    Ms. Thomas-Greenfield. You know, we regret that coup taking 
place. We do not support those kinds of actions, and we have 
made that very clear. But I do not believe the president is in 
a stronger position. I think because of the decision to seek a 
third term, he has weakened his position significantly, both 
within his party as well as outside his party.
    The information that we are getting from inside of Burundi 
is that he is in isolation. He is not in the capital. I do not 
think when he made the decision to run for a third term that he 
thought he was going to be president of a country that was 
imploding. That implosion is a result of his decision.
    Senator Flake. Senator Markey?
    Senator Markey. Thank you.
    Thank you for all your good work on this issue.
    So the President of Uganda is the mediator, but he has his 
own tough election next year, so he is going to be distracted 
in terms of his role. That creates a problem, a political 
distraction, when we need something that is real and now, an 
intervention with some passion and immediacy to solve the 
problem.
    Should the U.N., in your opinion, send in Chapter VII 
peacekeepers at this time, in order to help keep the peace?
    Ms. Thomas-Greenfield. President Museveni is engaged in his 
election, and I think very much distracted from the process. I 
think when he took on this responsibility from the Tanzanians, 
he hoped that it could be resolved quickly.
    He has assigned his minister of defense to oversee the 
negotiations. Again, they have not, as of yet, bore any fruit.
    Senator Markey. Again, that is a lot different than the 
president of a country.
    Ms. Thomas-Greenfield. Yes. He actually traveled there 
himself.
    Senator Markey. I know, but over the next several months 
here----
    Ms. Thomas-Greenfield. We are hopeful that in this process 
the A.U. will become more actively engaged in the negotiations 
and take this burden away from President Museveni.
    Senator Markey. What is Zuma saying to us?
    Ms. Thomas-Greenfield. She is very engaged, as I mentioned 
earlier. She just deployed her own special representative, 
President Boni Yayi, to Burundi. We have not had an opportunity 
to speak to him about what his tasks are, but we saw that as a 
positive sign.
    Senator Markey. The Hutu are organizing along ethnic lines 
and militarizing along ethnic lines, and that is always kind of 
a prelude to a failed state. So can you talk a little bit about 
that and this division that is developing more along arms lines 
between the Hutu and the Tutsi and how that ethnic traditional 
rivalry is now affecting the politics and the difficulty in 
finding a political resolution?
    Ms. Thomas-Greenfield. You know, Senator, actually we are 
buoyed by the fact that the ethnic part of this conflict has 
not taken root yet. It is a concern, but----
    Senator Markey. Do you see militarization developing along 
ethnic lines?
    Ms. Thomas-Greenfield. There is some militarization 
developing, but it is also within the ranks of the Hutu, as 
well as among the Tutsis, but I do not think the divisions are 
as sharp yet as they might become. We are worried about that 
happening, but at this point, that has not happened. I think 
the military has particularly avoided that.
    Again, we are seeing conflict within the Hutu ranks, within 
the president's party. So this is not yet one that has divided 
along those two fissures, which I think would be a really 
serious step in the wrong direction.
    Senator Markey. What is your view about the suitability of 
the East African Community to be able to deal with a problem of 
this magnitude? Is that really within their capacity to respond 
in a way that is going to avoid a civil war?
    Ms. Thomas-Greenfield. It could be in their capacity. They 
have not been able to successfully achieve that because there 
are tensions within the EAC as it relates to Burundi. There are 
tensions, clearly, between Burundi and Rwanda, but also 
tensions between Rwanda and Tanzania.
    Those tensions have caused the EAC not to be as effective 
as they might have been. For that reason, we do think having 
the A.U. take on this role would be a good thing.
    Senator Markey. Does that point more toward a U.N. Chapter 
VII peacekeeping mission?
    Ms. Thomas-Greenfield. I do not think we have reached that 
point yet. We have been in discussion with the A.U. about 
moving forward on contingency planning, so that if there is a 
need for a protection force in Burundi, that the A.U. would be 
able to pull that together very, very quickly.
    We have also been in discussion with the U.N. about the 
possibilities of using troops out of DRC who are along the 
border to provide protection. The Chapter VII discussions have 
not taken place yet.
    Senator Markey. Tell us a little bit, if you could, about 
your targeted measures against individuals in the country and 
who you are talking about and what those measures might be.
    Ms. Thomas-Greenfield. We have designated four individuals 
thus far for targeted sanctions. It was two from the government 
side and two who were involved in the failed coup plot. We are 
looking at individuals who have been responsible for 
exacerbating the instability in Burundi, who have contributed 
to the violence, and who are standing in the way of peace.
    So, again, there are two right now on the government side 
and two on the opposition side.
    Senator Markey. Okay, thank you.
    Ms. Thomas-Greenfield. And we are looking at others as 
well.
    Senator Markey. I think, from my perspective, as I look at 
this, in the absence of actual regional forces stepping up to 
deal with this issue, I think it should telescope the time 
frame that it takes for the U.N. to consider an active 
peacekeeping intervention. If we are waiting for all these 
countries on the sidelines to finally get their act together, 
it may be too late, and the ethnic divisions become so strong 
that putting the country back together again becomes very 
difficult.
    So I would recommend that you look at that and just make a 
clear-eyed judgment as to whether or not they are going to be 
able to resolve their own political differences in the 
surrounding countries. If not, I think we have to ask the U.N. 
to act.
    Ms. Thomas-Greenfield. There are discussions and plans for 
a Security Council trip to Burundi early next year, and I think 
that as well as many other issues will be on their plate to 
consider.
    Senator Markey. So I just think it is pretty clear that the 
President of Uganda is distracted, the other countries have 
their own political considerations, and meanwhile in the middle 
here is a president who is not really as concerned with the 
overall long-term historical well-being of his country. I just 
think we have a big role that we can play in the intervention.
    The sooner we make the intervention, the sooner everyone 
else is going to have to pay attention as well. I think this is 
a problem Africa should be solving. I think the sooner we get 
in, the sooner they will say, ``We are going to solve it for 
you. We should take this role.'' But I think it has to happen 
soon.
    Thank you so much for all your great work.
    Ms. Thomas-Greenfield. Thank you, sir.
    Senator Flake. Senator Coons?
    Senator Coons. Thank you, Chairman Flake and Ranking Member 
Markey, for holding this hearing that I think is so important.
    Thank you and great to see again, Assistant Secretary. 
Thank you for your tireless and dedicated work and your focus 
on this issue.
    The United States and the world are watching what is 
happening in Burundi. Back in August, I had the opportunity to 
lead a bipartisan codel to Rwanda, where we visited the 
memorial to the victims of genocide of 1994.
    Members of this Congress are committed to not letting such 
a stain on humanity happen again. So we are eager to work with 
you and the administration to make sure we are deploying all 
the capabilities and resources of the U.S. Government to 
meaningfully engage with this.
    The Burundian Government and the opposition must pursue a 
negotiated peace process, as you said in your testimony. Each 
day without credible peace talks is being read as a permission 
slip for the government or the opposition to escalate 
repression or violence. We cannot let that happen.
    There needs to be accountability for those who have been 
fomenting violence.
    As you discussed, what is happening in Burundi is also 
important because it can affect the future of other countries 
in the region, not the least of which is the DRC, as they 
prepare for their elections. It is my hope that President 
Kabila takes appropriate lessons from what is happening in 
Burundi and that he should not aspire to mire his country in 
even greater conflict by going down the ill-conceived path of 
President Nkurunziza.
    Regional leaders like Ugandan President Museveni have a 
critical role to play. Regional structures like the East 
African Community and the A.U. do.
    Our President Barack Obama has spoken of African solutions 
to African problems. When it comes to security and political 
crises like the ones we are seeing in Burundi, regional leaders 
need to partner with the international community and with us to 
develop meaningful solutions.
    So I am grateful for your focus on this, Mr. Chairman, and 
for your leadership.
    Tell me, if you would, just answers to three brief 
questions.
    What greater role can Congress play in preventing mass 
atrocities, specifically in Burundi but also elsewhere around 
the world? I know Senator Cardin is working on the mass 
atrocity board authorization bill. I would be interested in 
your view on what Congress can do here in Burundi as well as 
around the world.
    Second, just tell us a little more, if you would, about our 
efforts to support contingency planning by the U.N., by the 
A.U., by the EAC.
    And tell me, if you would, under what conditions you would 
seek additional authorities or funding from Congress for either 
stabilization assistance or humanitarian assistance relative to 
Burundi. Thank you.
    Ms. Thomas-Greenfield. Thank you, Senator, and it is great 
to see you. And again, thank you for everything that that you 
are doing to support our efforts.
    In terms of the role of Congress, there are a number of 
things you can do, particularly these kinds of hearings give a 
tremendous amount of highlight to this issue, both here in 
Washington but also in Africa. It amazes me the extent to which 
I hear from Africans what I say and what you say in these 
hearings. They need to know that our Congress, our Senate, is 
engaged on this issue.
    So that is the first thing, and you are already doing it, 
and it really does make a huge difference.
    The kinds of trips that you have taken to Rwanda and 
delivering the tough messages so that countries know that there 
is no light between the Congress and the administration on this 
issue are important. They need to hear from you on a regular 
basis that you support the efforts, you support the policy, and 
you are demanding the change.
    I sometimes use you when I am in meetings with heads of 
state. ``If I do not do this, my Congress is going to be on my 
head. You need to make a difference because it is not just me 
saying this but the entire U.S. Government, including our 
Congress, is a part of the process.''
    So having a strong, unified message from the Senate to 
President Nkurunziza--he looks for divisions within us. Those 
divisions are used. So having that message delivered to him in 
no uncertain terms, or any of these heads of state in the 
region, I think again gets the message across in a strong way.
    In terms of contingency planning, we were very pleased to 
hear from the A.U. that they have now intensified their 
contingency-planning efforts. We have been in conversation with 
them for probably the last 8 months to push contingency 
planning forward. We have offered some of our planners to 
support their effort. That offer is still on the table. They 
are moving forward with this, as well as having conversations 
with the East African standby force.
    The important element of putting together a contingency 
plan is what troops will be used and to make sure that we have 
troops that have the support of both sides, and who are not 
seen to be taking sides.
    So it is really important that we encourage some of the 
countries who are outside of the region, the immediate region, 
to participate in any troop deployments that we make in the 
region.
    The EC has indicated their support for this effort. We are 
in constant conversation with the EU.
    In fact, the five envoys--the EU envoy, our envoy, A.U., 
U.N., and the Belgium envoy--are traveling together in the 
region right now and are putting together a very strong front 
to respond to this.
    In terms of funding, of course, the humanitarian side is 
huge. The humanitarian impact of what is happening in Burundi 
cannot go unnoticed. Two-hundred-twenty-thousand refugees is 
not a small number.
    When we start looking at those numbers in Europe, we think 
they are huge. They are huge in Africa as well.
    We need to be able to provide the support to refugees and 
respond to the humanitarian crisis that is coming out of this 
with robust funding. And the U.S. Government's funding has been 
critical to support refugees.
    But we also have to look at what we do on building the 
capacity of civil society, as well as governments, to build 
strong governance. We have worked closely with civil society 
and even the parties in Burundi in the early days. But 
certainly, we had limited resources in that area. We need to do 
more. We need to do more to support good governance and build 
institutions that are strong and that people have confidence 
in.
    We see when we do that it works. It has worked in Burundi. 
It has worked in Nigeria. It has worked in Cote d'Ivoire. And 
it can work in Central Africa, with the right amount of 
resources to put into play.
    Senator Coons. Terrific, thank you, Madam Assistant 
Secretary.
    Thank you, Mr. Chairman.
    Senator Flake. Thank you.
    Senator Markey brought up the prospect of this devolving 
into some kind of ethnic conflict like we have seen in that 
area, obviously, before. You mentioned that, gratefully, it is 
not there.
    What are the warning signs that we are looking for? Where 
is the tipping point there when it becomes an ethnic conflict? 
What should we be looking for there?
    Ms. Thomas-Greenfield. We have seen some warning signs 
already. Several weeks ago, the language coming out of the 
president and the president of the senate were very alarmist. 
They were using references that we saw used prior to the start 
of the genocide in Rwanda.
    We pulled out all the stops during a very short period of 
time to highlight what we were hearing, including making calls 
to the government to say we are hearing what you are saying and 
it is not acceptable. But we also gave that message to leaders 
around the region.
    I think they heard it, and I think we were able to actually 
stave off this turning into that kind of ethnic violence. There 
was clearly an effort to make a call to people to respond in 
that way. I think the Burundian people resisted, and we have to 
hope that they continue to resist. We have to continue to give 
them the wherewithal to resist these calls.
    So there are some signs. It has not gotten to the point yet 
where we can call it a solid line drawn ethnic conflict, 
because, once that happens, I think it will be hard to turn it 
back.
    Senator Flake. Thank you. With that and the appreciation of 
the committee, thank you for being here, and we will make time 
for the second panel.
    Thank you, Assistant Secretary Thomas-Greenfield, for being 
here and for all your hard work. Thank you for always keeping 
us informed and working with us on this. We appreciate it.
    Ms. Thomas-Greenfield. Thank you very much.
    Senator Flake. We will have a 2-minute break while the 
second panel takes its place. Thank you. [Break.]
    Senator Flake. I appreciate the second panel being in 
place. Senator Markey will be back momentarily, so we will go 
ahead and get started.
    Dr. Joseph Siegle is director of research, Africa Center 
for Strategic Studies, where his work focuses on the ongoing 
and long-term security challenges for African nations. Thank 
you for being here.
    Thierry Vircoulon is the project director for Central 
Africa at the International Crisis Group. He joins us today all 
the way from Nairobi. Thank you for being here.
    Vingy Nimuraba is dean's assistant and director for 
violence prevention programs at the School of Conflict Analysis 
and Resolution at George Mason University. Thank you for being 
here.
    We look forward to your testimony, and we will go with Dr. 
Siegle.

 STATEMENT OF DR. JOSEPH SIEGLE, DIRECTOR OF RESEARCH, AFRICA 
  CENTER FOR STRATEGIC STUDIES, NATIONAL DEFENSE UNIVERSITY, 
                        WASHINGTON, D.C.

    Dr. Siegle. All right, good afternoon, Chairman Flake. 
Thank you for the opportunity to speak with you today about the 
crisis in Burundi.
    While frequently characterized in ethnic terms, the crisis 
in Burundi today is actually political in nature. It is an 
outcome of a political leader and a small cadre of allies 
gaming to perpetuate their hold on power passed through 
constitutionally mandated term limits.
    This has triggered a breakdown in Burundi's popular and 
heretofore effective process of building a multiethnic 
democratic transition since the conclusion of the country's 12-
year civil war in 2005, in which an estimated 300,000 
Burundians lost their lives.
    While there are pathways to resolving this crisis, it is 
important that a resolution be found quickly before the human 
costs worsen and the situation deteriorates to a point where 
any such solution becomes much more difficult and costly.
    Finding a solution in Burundi has broader implications for 
the region as well. Already the Burundi crisis has created a 
burden for its neighbors, with 223,000 refugees, mostly in 
Rwanda and Tanzania. This is exacting a prolonged economic and 
social burden for these countries.
    Africa's Great Lakes region also has been host to some of 
the most prolonged, vicious, and complicated conflicts on the 
continent over the past 2 decades. Further escalation in 
Burundi could at any time precipitate military intervention by 
neighboring Rwanda where the memories of genocide remain fresh. 
This in turn may spark a military response from other neighbors 
worried about Rwanda's influence in the region, recalling 
previous conflicts in the Democratic Republic of Congo.
    Likewise, there are reports that Rwandan Hutu rebel groups 
operating out of the DRC, notably the Interahamwe, have been 
coming into Burundi in support government-aligned militias 
there.
    Similarly, the outcome of the term limits battle in Burundi 
has political implications for the rest of Africa. Since 2000, 
there have been a dozen African leaders who have tried to 
circumvent term limits that were instituted to limit the 
monopolization of power and foster a culture of democratic 
transition in Africa.
    Half of those leaders were successful in extending their 
time in office. The other half, however, facing concerted 
domestic and international opposition, were not. In fact, the 
trend since 2010 has been to block such attempted 
circumventions.
    The outcome in Burundi, therefore, will impact the norm on 
the continent, where 19 of the 54 African leaders have been in 
power for more than a decade.
    Furthermore, the tactics used in Burundi in pursuing a 
third term, overriding the constitution, bullying opponents, 
and then holding rump elections, set a particularly 
destabilizing precedent in Africa, if it is allowed to stand.
    Despite the serious challenges involved, the crisis in 
Burundi is amenable to resolution. It is not rooted in deep 
structural differences within Burundian society. Moreover, a 
framework resolution already exists in the Arusha Accords that 
have guided the country out of its civil war. These accords are 
a popular social contract among Burundi's ethnically diverse 
population. They have become nothing less than a part of the 
social fabric and national identity in Burundi as part of its 
vision for a multiethnic democratic society.
    So any diplomatic efforts we pursue should make clear that 
the Arusha Accords are the starting point for this.
    So working in collaboration with regional mediation 
efforts, the United States can reinforce the Arusha political 
framework in the following five ways.
    First, support the creation of a multiparty transitional 
government in Burundi. For the purpose of a transitional 
government, model experiences of Burkina Faso, Guinea, and 
Mali, to chart a course back to the constitutional framework of 
a free, fair, participatory electoral process.
    These institution mechanisms were in place earlier in the 
year, before the April announcement. Consequently, the 
objective of this transitional phase would be to reestablish 
this democratic trajectory.
    Second would be to support the deployment of an 
international peacekeeping force. In order for a political 
resolution and to foster a stable transition to Burundian 
crisis, the United States should logistically and financially 
support an international peacekeeping force under the auspices 
of the African Union and the United Nations. Such a force would 
serve as a buffer between rival armed groups to minimize the 
risk of escalation, enhance civilian protection, as well as to 
serve as a deterrent to the provocations that could trigger 
mass atrocities.
    Third would be to sanction spoilers. The White House 
decision to issue targeted sanctions for individuals most 
responsible for the political violence is an effective way to 
demonstrate to Burundi's political elites that there are 
personal costs for their actions. The European Union and 
African Union have also imposed sanctions on individuals and 
entities. But the U.S. should be prepared to expand the scope 
and breadth of these sanctions as a way of exerting greater 
pressure on Burundian political actors.
    Fourth, all non-statutory forces should be disbanded and 
forensic accounting should be made to identify those 
responsible for funding them. Given the central and 
unaccountable role that militias, particularly the 
Imbonerakure, are playing in intimidating and inflicting 
violence on the civilian population in Burundi, the United 
States should support the disbanding of these groups as part of 
any peacekeeping mandate.
    Fifth, the free and independent flow of information should 
be restored. A prerequisite of any genuine domestic dialogue in 
the participatory political process in Burundi is going to be 
the restoration of an independent media and protections of the 
freedom of expression. The U.S. should call for the restoration 
of independent media outlets that have been closed by the 
Burundian Government. Until that time, the United States should 
expand funding to the Voice of America, as well as networks of 
exiled from Burundian journalists across the region who can 
help report on events inside of Burundi.
    The Government of Burundi should be called upon to 
immediately release all journalists who have been arrested. And 
in the absence of any domestic means to investigate the 
harassment and violence against journalists, the United States 
should also sponsor independent fact-finding missions by the 
African Union and the United Nations regarding the 
circumstances and parties responsible for journalists who have 
been killed or imprisoned in the course of trying to do their 
job of informing the public.
    So in conclusion, the crisis in Burundi today is political. 
It is manufactured by a relatively small number of individuals 
who do not want to play by the democratic rulebook to which 
they came to power. In the process, they are attempting to 
undermine the multiethnic political framework that has been 
taking hold in Burundi.
    Active international engagement at this point is going to 
be critical to restoring the Arusha Accords before the cycle of 
violence and fragmentation accelerates to a point that a 
solution becomes much more difficult and costly to Burundi, the 
region, and the international community.
    Thank you very much.
    [The prepared statement of Dr. Siegle follows:]

               Prepared Statement of Dr. Joseph Siegle\1\
---------------------------------------------------------------------------

    \1\ Director of Research, Africa Center for Strategic Studies. All 
views expressed are those of the author and do not reflect an 
institutional position of the Africa Center for Strategic Studies or 
the Department of Defense.
---------------------------------------------------------------------------
    Chairman Flake, Ranking Member Markey, and fellow members of the 
Senate Subcommittee on Africa and Global Health Policy, thank you for 
the opportunity to speak with you today about the crisis in Burundi.
    While frequently characterized in ethnic overtones pitting the 
majority Hutu population against the minority Tutsi, the crisis in 
Burundi today is not an ethnic conflict. This is a political crisis--an 
outcome of a political leader and a small cadre of allies aiming to 
perpetuate their hold on power past constitutionally-mandated term 
limits. This has triggered a breakdown in Burundi's popular and 
heretofore effective process of building a multi-ethnic democratic 
transition since the conclusion of the country's 12-year civil war in 
2005 in which an estimated 300,000 Burundians lost their lives.
    While there are pathways to resolving this crisis, it is important 
that a resolution be found quickly, before the situation deteriorates 
to a point of fragmentation and self-perpetuating ethnic conflict such 
that any solution becomes much more difficult and costly.
The current security situation
    The crisis in Burundi was triggered on April 25, when incumbent 
President Pierre Nkurunziza announced he would seek a third term in 
office, despite a two-term limit in the country's constitution. 
Popular, peaceful protests organized by a multi-ethnic coalition of 
civil society organizations ensued. So too did an orchestrated campaign 
of intimidation by a youth militia, the Imbonerakure, which was 
established, trained, and armed by the ruling CNDD-FDD party for at 
least a year in advance. The repression escalated following an 
attempted military coup in May. Opposition strongholds, civil society 
representatives, and media were especially targeted.
    This has led to the deaths of an estimated 500 people and the 
displacement of 280,000-350,000. Underscoring the political origins of 
this crisis-and the repercussions for dissent--many senior government 
officials from the CNDD-FDD opposed to Nkurunziza's bid for a third 
term have also fled to exile.
    In the face of this intimidation and exodus, peaceful protests have 
waned and violent reprisals have emerged. In early August, a well-
coordinated rocket attack killed the most feared military figure in the 
country, General Adolphe Nshimirimana. Reflecting an apparent 
decapitation strategy, several other senior military figures have also 
been assassinated or targeted. Several dozen police officers have also 
been attacked. In apparent retaliation, civil society and opposition 
political leaders or their family members have been killed.
    Despite calls from African and international leaders to delay 
elections until the term limit controversy could be resolved through 
regional mediation efforts and stability restored, the CNDD-FDD held 
parliamentary and presidential elections in July. The elections were 
boycotted by opposition parties and were deemed to lack credibility by 
the United States, the African Union, the East African Community, the 
European Union, and the United Nations.
    Keeping track of these fluid developments has been all the more 
difficult because Burundi's independent media outlets have been 
shuttered by government forces since May. Access to independent and 
corroborated sources of information has become more difficult.
The fear of genocide
    Raising the stakes further, in an effort to mobilize support among 
the Hutu majority, the CNDD-FDD has been increasingly employing 
ethnically polarizing tactics. Purges among senior military and 
government officials have largely been ethnically based. In November, 
CNDD-FDD leaders began invoking ethnically incendiary language, 
recalling the pattern employed in the Rwandan genocide. Emblematic of 
this was a speech Burundian Senate President Reverien Ndikuriyo gave to 
supporters in Kirundi on November 3: ``on this underlying issue, you 
have to pulverize, you have to exterminate--these people are only good 
for dying. I give you this order, go!'' Similar statements were made by 
other senior government leaders including Pierre Nkurunziza. These 
remarks triggered a new surge of refugees toward Burundi's borders.
    Swift international condemnation of such language, notably by 
President Obama, United States Ambassador to the United Nations 
Samantha Power, and an open letter by International Criminal Court 
(ICC) Prosecutor Fatou Bensouda that any invocation to ethnic violence 
would be used as evidence in a future ICC investigation, have led to 
the tempering of such inflammatory remarks. Nonetheless, the 
intimidation and targeted killings continue.
    In short, the foundation for genocide--the mindset, climate of 
fear, and polarization--has been laid. Some Burundians have said the 
level of apprehension is now worse than during the civil war. Then, 
most of the killing was between armed combatants. Now civilians are 
also being targeted, causing a greater sense of vulnerability.
    Various mediation efforts have been underway since April, led 
primarily by the African Union and the United Nations. These have been 
unsuccessful in dissuading Nkurunziza from his determination to hold 
onto power at all costs, however.
    Nkurunziza's determined resistance to diplomacy and reason, even at 
risk of precipitating a new civil war and overturning all of the 
progress Burundi had made over the past decade, has led many Burundians 
to conclude that the only pressure he will respond to is military 
force.
Regional implications
    Finding a resolution in Burundi has broader implications than for 
the country itself. Already the Burundi crisis has placed a burden on 
its neighbors with 240,000 refugees-mostly in Rwanda and Tanzania. 
During the 1993-2005 civil war there were 870,000 Burundian refugees, 
exacting a prolonged economic burden on the region.
    Africa's Great Lakes region has also been host to some of the most 
prolonged, vicious, and complicated conflicts on the continent over the 
past two decades-from which the region has only recently been moving 
past. Further escalation against the population in Burundi could at any 
time precipitate a military intervention by neighboring Rwanda, where 
the memories of genocide remain fresh. This, in turn, may spark a 
military response from other neighbors worried about Rwanda's influence 
in the region and recalling previous conflicts in the Democratic 
Republic of the Congo (DRC). Likewise, there have already been reports 
of Rwandan Hutu rebel groups operating out of the DRC, notably the 
Interahamwe, coming into Burundi in support of government-aligned 
militias.
    The outcome of the term limits battle in Burundi also has political 
implications for the rest of Africa. Since 2000, a dozen African 
leaders have tried to circumvent term limits that were instituted to 
limit the monopolization of power and foster a culture of democratic 
transitions in Africa. Half of those leaders were successful in 
extending their time in office. The other half, facing concerted 
domestic and international opposition, were not. In fact, the trend 
since 2010 has been to block such attempted circumventions. The outcome 
in Burundi, therefore, will shape the norm on the continent where 19 of 
54 African leaders have been in power for more than a decade (and four 
for more than 30 years). Furthermore, the tactics used in pursuing a 
third term in Burundi--overriding the constitution, bullying opponents, 
and then holding rump elections--are a particularly dangerous precedent 
for Africa if allowed to stand.
Underlying factors to the Burundi crisis
    Given the devastating social and economic costs to Burundi caused 
by Pierre Nkurunziza's decision to pursue a third term in office, as 
well as strong opposition from within his own party, it is reasonable 
to reflect on what some of the underlying motivations for this course 
of action may be.
    In addition to the natural desire of many leaders in positions of 
authority to extend their time in power, Nkurunziza's efforts to retain 
control of the presidency likely stem from a Burundian political 
economy that rewards senior officials financially. Access to political 
power in Burundi allows for considerable control over public 
procurement processes, the mining sector, international financial 
assistance, and reimbursements for peacekeeping deployments. Moreover, 
presidential power affords control over state-owned monopolies, land 
and property sales, privatization procedures, as well as import and 
export restrictions. Burundi scores 159th out of 175 countries on 
Transparency International's ranking of most corrupt countries in the 
world. Furthermore, the government has forcibly intervened when its own 
anticorruption watchdog has inquired too deeply or publicly.
    Another motivation for attempting to stay in power is the desire by 
some Hutu hardliners in the CNDD-FDD to break out of the Arusha Peace 
and Reconciliation Agreement for Burundi (referred to as the Arusha 
Accords). Their position is that the Accords are overly restrictive to 
Hutus, who comprise a strong majority in Burundi. The avoidance of term 
limits is a violation a key feature of the Accords. If this is 
accepted, it then offers prospects to renegotiate the entire political 
framework in Burundi in a manner that will be more conducive to 
hardline Hutu interests.
A framework for stability
    Despite the serious challenges involved, this is a political crisis 
and is amenable to resolution. It is not rooted in deep structural 
differences within Burundian society. Moreover, a framework for 
resolution already exists in the Arusha Accords that has guided the 
country out of its civil conflict since 2000. This includes the 
precedent of political transitions. Burundi has experienced two 
peaceful transitions in power under the Accords, first in 2003 and 
again in 2005. Indeed, one of the greatest tragedies of the current 
crisis is the obscuring of the exemplary progress within Burundian 
society that has been made over the past 15 years. By stipulating that 
political power would not be dominated by either Hutus or Tutsis, the 
Arusha Accords promoted inter-ethnic political coalition building. This 
was true for nearly all of the major Burundian political parties 
including the CNDD-FDD.
    Similar patterns took hold within civil society with the result 
being the fostering of an inter-ethnic national identity-a dramatic 
departure from the polarization of the past. Revealingly, the protests 
against Nkurunziza's bid for a third term were organized by these 
inter-ethnic civil society alliances involving more than 200 non-
governmental organizations who were mutually motivated to upholding 
Burundi's fledgling democratic processes.
    Perhaps the greatest headway was made within Burundi's military. 
Historically Tutsi-dominated, the military embarked on a comprehensive 
reform program in the mid-2000s that embodied the multi-ethnic 
principles of the Accords. Trust-building exercises were held at all 
levels of the military, Hutu and Tutsi recruits were trained together, 
and values of apolitical military professionalism were inculcated. 
While incomplete, the process demonstrated dramatic changes in 
attitudes about ethnicity within the military. Burundian troops also 
came to play a significant role in peacekeeping missions, especially 
through their contributions to the African Union's Mission in Somalia 
(AMISOM). Its five rotating battalions equate to more than 5,000 troops 
stationed in Somalia throughout the year. The result has been a 
relatively strong level of pride and military professionalism.
    This professionalism has been on display during the political 
crisis. Despite extraordinary political pressures, the Burundian 
military has largely stayed neutral during the crisis. During the 
protests, soldiers regularly acted as a buffer between protesters and 
police and government-affiliated militias. Nkurunziza's inability to 
depend on the military for domestic political ends has constrained his 
behavior. That said, the ongoing efforts to politicize the military by 
arresting and purging Tutsi or moderate Hutu troops have placed great 
strains on this institution. Defections have ensued with as many as 300 
military members having absconded with their weapons as a result.
    The enormous value of Burundi's security sector reforms is 
underscored by how poorly the police, gendarmerie, and intelligence 
services have behaved in comparison to the military. These groups are 
made up mostly of former combatants from Burundi's civil war who were 
ineligible for integration into the military. Burundi's police and 
intelligence services, therefore, have remained politicized and are 
collaborating with the CNDD-FDD's youth league, the Imbonerakure, in 
cracking down on opposition and spearheading the pro-government 
violence.
    The extent to which the Arusha Accords have become a part of the 
political fabric in Burundi is evidenced by the serious rift within the 
CNDD-FDD caused by Nkurunziza's pursuit of a third term and 
mobilization of support on an ethnic basis. Some 130 senior CNDD-FDD 
officials signed a petition in April requesting Nkurunziza to respect 
the Constitution and the Arusha Peace and Reconciliation Agreement. 
When this was rejected, over 140 CNDD-FDD members, including two senior 
vice-presidents, left the party (for safety concerns sometimes 
departing the country clandestinely before voicing their opposition). 
In July a coalition of opposition parties, senior defectors from the 
ruling party, and civil society leaders met in Addis Ababa, Ethiopia to 
form the National Council for the Restoration of the Arusha Accords 
(CNARED). It is leading a broad-based effort to engage in externally 
facilitated negotiations to establish an Inter-Burundian National 
Dialogue.
Role for external actors
    Given the high levels of distrust among political parties and 
limited space for free expression, resolving the conflict in Burundi 
will require engagement by external actors. Diplomatic efforts in the 
region should continue to be the focal point for mediation efforts. The 
United States can support and enhance these initiatives in several 
ways.

   Support creation of a multi-party transitional government in 
        Burundi
    As part of its commitment to a political settlement in Burundi, the 
United States should support the creation of a transitional government 
in Burundi whose purpose is to oversee a political course back to a 
constitutional framework and a free, fair, and participatory electoral 
process. As the institutional mechanisms for a political transition 
were already in place earlier this year, the objective of this 
transitional phase would be to reestablish a path for this democratic 
trajectory. This transitional government of technocrats should be 
comprised of all leading political parties as well as representatives 
of civil society. Members of the transitional government would be 
barred from competing for political office in the succeeding elections. 
Having fulfilled his constitutionally mandated second term, Pierre 
Nkurunziza would not be eligible to participate in this transitional 
government or the subsequent presidential elections.

   All parties in Burundi must renew their commitment to the Arusha 
        Peace and Reconciliation Agreement
    Diplomatic efforts should make clear that the starting point for 
any political arrangement must be founded on the Arusha Accords. The 
Accords represent a social contract among Burundi's ethnically diverse 
population to end 12 years of civil war and, at times, genocidal 
massacres that dated back to Burundi's independence in 1960. The Arusha 
Accords were intended specifically to prevent future ethnic conflict 
and its provisions were included in Burundi's constitution. The highly 
popular Accords have become no less than a part of the fabric of 
Burundian national identity and its vision of a multiethnic, democratic 
society.
    Under the Accords no single ethnic group can constitute more than 
half of the defense and security forces. Similarly, no ethnic group can 
hold more than two-thirds of local, county, and municipal positions. 
Across cabinet ministries, the diplomatic service, and the institutions 
supporting democracy such as the National Electoral Commission, 
Constitutional Court, National Assembly, and National Commission on 
Human Rights, no party in power can enjoy more than 60 percent 
representation.

   Support deployment of international peacekeeping forceIn order to 
        support a political resolution and foster a stable transition 
        to the Burundi crisis, the United States should logistically 
        and financially support an international peacekeeping force 
        (likely comprising 3,000-5,000 troops) under the auspices of 
        the African Union and/or United Nations. As at the end of the 
        civil war, such a force would serve as a buffer between rival 
        armed groups to minimize the risk of escalation, enhance 
        civilian protection, as well as to serve as a deterrent to 
        provocations that could trigger mass atrocities. Deploying a 
        peacekeeping force would also serve as a confidence-building 
        measure for all sides, which would help provide assurances to 
        those in exile and among all parties to the conflict that their 
        return and participation in the political dialogue will be 
        supported by institutional safeguards. The African Union has 
        previously called on its members to be prepared to support such 
        a mission. U.N. Security Council Resolution 2248, furthermore, 
        reminds all of the ICC's jurisdiction and welcomes the 
        deployment of African Union monitors and military experts.

   Sanction spoilers
    The White House's decision to issue targeted sanctions on four 
individuals most responsible for the political violence-from both the 
government and opposition-is an effective way of demonstrating to 
Burundi's political elites the personal costs of their actions. The 
European Union and African Union have also imposed sanctions on a list 
of individuals and entities.
    The United States has also suspended Burundi from eligibility for 
the preferential trade benefits that come from the African Growth and 
Opportunity Act (AGOA). The EU is debating whether to suspend Burundi's 
trade privileges. Belgium and other European bilateral donors have 
suspended aid to a number of development projects and stopped 
cooperation with the Burundian police. This is particularly significant 
since aid accounts for 54 percent of Burundian government expenditures.
    The United States should be prepared to expand the scope and 
breadth of these targeted sanctions as a means of exerting greater 
pressure on Burundi's political actors to restore the Arusha Accords 
and demonstrate a sustained United States commitment to a political 
resolution. With this aim in mind, the United States should offer its 
cooperation in evidence- gathering to any International Criminal Court 
investigation that is undertaken.

   All non-statutory forces must be disbanded and forensic accounting 
        should identify those responsible for funding them.
    Given the central (and unaccountable) role that militias, 
particularly the Imbonerakure, are playing in intimidating and 
inflicting violence on the civilian population in the Burundi conflict, 
the United States should support the disbanding of these groups as part 
of any peacekeeping mandate. The United States should also make 
available any information, including the forensic accounting of 
financial flows to these groups so as to hold responsible those 
political actors who are sponsoring these militias.

   The free and independent flow of information should be restored
    A prerequisite to a genuine domestic dialogue and a participatory 
political process in Burundi is the restoration of independent media 
and protections for freedom of expression. Independent reporting and 
access to information are also essential ingredients to maintaining 
domestic and international accountability. The United States should 
call for the restoration of all independent print, broadcast, and 
digital media outlets that have been closed by the Burundian 
government. Until that time, the United States should expand funding to 
the Voice of America and exiled Burundian journalists who can tap their 
networks to report on events inside of Burundi.
    The Government of Burundi should be called on to immediately 
release all journalists who have been arrested. In the absence of any 
domestic mechanisms to investigate the harassment and violence against 
journalists, the United States should also sponsor an independent fact-
finding mission by the African Union and United Nations regarding the 
circumstances and parties responsible for journalists who have been 
killed or imprisoned in the course of trying to do their jobs of 
informing the general public.
Conclusion
    The crisis in Burundi today is political-manufactured by a 
relatively small number of individuals who do not want to play by the 
democratic rulebook through which they came to power. In the process, 
they are attempting to undermine the multi-ethnic political framework 
that has provided Burundi a pathway away from cycles of genocide to 
peace and stability. Active international engagement at this point is 
critical to restoring the Arusha Accords before the cycle of violence 
and fragmentation accelerates and finding a political solution becomes 
much more difficult and costly to Burundi, the region, and the 
international community.


    Senator Flake. Thank you.
    Mr. Vircoulon?

    STATEMENT OF THIERRY VIRCOULON, CENTRAL AFRICA PROJECT 
      DIRECTOR, INTERNATIONAL CRISIS GROUP, NAIROBI, KENYA

    Mr. Vircoulon. Thank you, Chairman. I appreciate the 
opportunity to appear this afternoon on behalf of the 
International Crisis Group before the Senate Foreign Relations 
Committee to discuss the current political and security crisis 
in Burundi. We want to thank the chairman and members of the 
committee for calling U.S. attention to an already severe 
humanitarian crisis and one that has a potential for mass 
atrocities and regional destabilization.
    The Crisis Group has been following developments in Burundi 
for almost 2 decades, and we have warned repeatedly about these 
crises building under President Pierre Nkurunziza, one with 
political origins, as it was said, but with clear ethnic 
undercurrents.
    The first phase of the present crisis began with the 2010 
election. Those polls were a logistical success but a political 
failure, leaving political institutions dominated by the ruling 
party. Immediately following those elections, the government 
launched a post-electoral campaign of extrajudicial killings 
and forced its main opponents out of the country.
    As a result, civil society and independent media became the 
only dissenting voices. From 2010 to 2014, there was a steady 
polarization, socioeconomic discontent, and further closing of 
political space.
    The second phase of the crisis started in 2014 and centered 
on the growing evidence that President Nkurunziza intended to 
run for a third term, violating the Arusha agreement.
    The third phase of the crisis started in April this year 
with street protests against President Nkurunziza's candidacy 
for a third term.
    The present phase of the crisis--armed confrontation--
corresponded with President Nkurunziza securing a third-term 
mandate in July after an election that the African Union and 
the European Union decided not to observe because of political 
and security conditions in the country.
    Even beyond the humanitarian tragedy unfolding in Burundi, 
the regime now looks more and more like a failed police state. 
Regional spillover no longer is just a threat, as has been 
said, but a reality.
    The present patterns of violence are a reminder of what 
happened before the civil war broke out in 1993. For the 
Burundians, the story is repeating itself. This deja vu feeling 
and the memories of the civil war are the reasons why more than 
200,000 Burundians have fled their country since the start of 
this year.
    One of the fundamental reasons why this crisis matters for 
Burundi, Africa, and the international community is that it 
challenges the Arusha peace agreement that was painstakingly 
negotiated during 4 years to bring peace to a country where 
300,000 had died.
    One of the most glaring failures of Arusha sponsors was not 
enforcing respect for the results of international mediation. 
Mediation brokered a deal for the return of the opponents in 
exile in 2013 with the view of making the 2015 elections 
inclusive.
    Special envoys from the U.S., the EU, Belgium, France, the 
U.K. and other countries also enabled a dialogue led by the 
U.N. special envoy between the opposition and the government to 
try and bring peace during the street protests earlier this 
year. However, the aim of an inclusive electoral process was 
gutted by President Nkurunziza's insistence on running again.
    The mediation was officially handed over to the Ugandan 
President Yoweri Museveni, but there has been no progress. The 
resumption of an externally mediated dialogue is now the only 
option.
    The decision of the U.S. Government to support an 
international dialogue is, at this stage, very important. U.S. 
President Barack Obama's 27 October decision to exclude Burundi 
from the African Growth and Opportunity Act is an important 
signal, but it is not enough.
    The African Union Peace and Security Council has been most 
outspoken in demanding an end to violence, a resumption of a 
facilitated dialogue, and threatening the use of an African 
Union intervention force. But the African Union members do not 
want to bypass President Museveni and the East African 
Community.
    Right now, the Westerners are waiting for the African 
Union. The African Union is waiting for President Museveni. And 
the people of Burundi are waiting for the end of violence.
    If there is no externally mediated dialogue, the likely 
scenarios include a new coup, the emergence of a guerilla force 
in the countryside, and/or a large-scale repression against the 
rebellious districts of Bujumbura.
    Therefore, the resumption of a dialogue between the 
opposition and the government is absolutely essential. This 
implies the formation of an international mediation team 
supported by the U.S. and the European Union with additional 
sanctions against those responsible for violence.
    The agenda of the internationally mediated dialogue should 
be open, but it should include the Arusha agreement.
    If there is a need to halt atrocity, and if an African 
Union-led peace implementation mission cannot be deployed 
quickly, the U.N. should be planning to bring MONUSCO's Force 
Intervention Brigade into action.
    In addition, the African Union should be examining how it 
could replace Burundian troops in AMISOM, if that becomes 
necessary.
    It also must be stressed to Rwanda and Tanzania that they 
must play a constructive role in the present crisis.
    The wait-and-see attitude of the international community 
during the past 4 years is part of the reason why the crisis 
has brought us to this point. There is now urgency for more 
coherent and determined international action to halt the 
country's further disintegration and prevent more violence 
within and beyond Burundi's border.
    Thank you for your attention.
    [The statement of Mr. Vircoulon follows:]

                Prepared Statement of Thierry Vircoulon

    I appreciate the opportunity to appear this afternoon on behalf of 
the International Crisis Group before the Senate Foreign Relations 
Africa Subcommittee to discuss the current political and security 
crisis in Burundi. We want to thank the chairman and members of the 
Committee for calling U.S. attention to an already severe humanitarian 
crisis and one that has the potential for mass atrocities and regional 
destabilization.
    The International Crisis Group came into being because our founders 
believed that too often, major powers and international organizations 
ignored the cables, however incomplete they might be, coming from 
Rwanda, or Srebrenica or the Congo. After the Cold War, there seemingly 
no longer were strategic linkages from those countries affecting major 
powers, other than the sheer horror of the human suffering being 
inflicted.
    We are an independent, non-partisan, non-governmental organization 
that provides field-based analysis, policy advice and recommendations 
to governments, the United Nations, the European Union and other 
multilateral organizations on the prevention and resolution of deadly 
conflict. We were founded in 1995 by distinguished diplomats, statesmen 
and opinion leaders. Our president is Jean-Marie Guehenno, former head 
of U.N. peacekeeping, and our board of national and international 
leaders includes four former heads of state and eight former foreign or 
defense ministers and distinguished African leaders including Cheryl 
Carolus, former South African High Commissioner to the UK and Secretary 
General of the African National Congress; Mo Ibrahim, president of 
Ibrahim Foundation; and Ayo Obe, Nigerian lawyer and human rights 
activist. U.S. foreign policy leaders on our board include Ambassador 
and former Undersecretary of Political Affairs Thomas Pickering, former 
NATO Supreme Commander Wesley Clark, former Senator Olympia Snowe, 
former career Ambassador Mort Abramowitz and former Secretary of the 
Treasury Lawrence Summers.
    Crisis Group has been following developments in Burundi for almost 
two decades, and we have warned repeatedly about this crisis building 
under President Pierre Nkurunziza, one with political origins but with 
clear ethnic undercurrents. The first phase of the present crisis began 
with the 2010 elections. Those polls were a logistical success but 
political failure. The opposition only participated in the communal 
elections and boycotted the national ones, charging the government with 
unfairly tilting the playing field, but thereby leaving national 
political institutions dominated by the National Council for the 
Defense of Democracy-Forces for the Defense of Democracy (CNDD-FDD).
    Immediately following those elections, the government launched a 
repressive post-electoral campaign of extrajudicial killings and forced 
its main opponents out of the country. As a result, civil society and 
independent media became the only dissenting voices. From 2010 to 2014, 
there was steady polarization, socio-economic discontent and further 
closing of political space. It included a failed constitutional review, 
public disputes between civil society watchdogs and the government, and 
the government arming the youth wing of the CNDD-FDD known as the 
Imbonerakure to maintain a tight grip on the countryside. The 
Nkurunziza administration established a near monopoly and corrupt 
control over state resources, bribed and coerced opposition party 
leaders and over time used national police and security forces to 
enforce authoritarian governance.
    The earlier political deterioration exploded finally into the 
second phase of the crisis in 2014 centered on the growing evidence 
that Nkurunziza intended to run for a third term-violating the Arusha 
Accord which had ended the country's 12 year civil war. During the 
electoral preparations, the government and the opposition disagreed on 
almost everything, from the composition of the local electoral 
commissions to the registration of voters, stripping its legitimacy 
from the start. At the end of 2014, all the unsolved problems of the 
previous four years had resurfaced. With the ruling party rejecting any 
consensual approach, opposition and civil society had no faith in the 
electoral process as a means to achieve political change.
    The third phase of the crisis started in April this year with 
street protests against President Nkurunziza's candidacy for a third 
term. After the president managed to obtain the blessing of the 
constitutional court and to silence those who opposed his candidacy 
within his own party, demonstrations in Bujumbura, the capital city, 
quickly turned violent. Daily confrontations occurred between the 
security forces/Imbonerakure and a coalition of political opposition/
civil society organizations who enjoyed the moral support of the 
Catholic Church. Two key developments happened during this phase. 
First, the army, which had initially played a positive role by 
interposing its forces between demonstrators and police to halt 
conflict, became increasingly fractured leading finally to high-ranking 
officers organizing a failed coup in May. Second, given increasing 
rifts within the CNDD-FDD and fearing for their lives, many moderate 
leaders of the ruling party fled the country, leaving the radicals in 
complete control of the party and the state. Regional and international 
attempts to mediate the crisis in June and July only managed to delay 
elections without substantially improving the conditions under which 
they were held.
    The final phase of the crisis-armed confrontation-corresponded with 
President Nukurnziza securing a third-term mandate in July after 
fraught elections declared unfair by virtually every observer, 
including the African Union, the European Union, the U.S. and other 
governments. Nightly police raids and execution-style operations 
followed in districts of Bujumbura where many regime opponents lived 
and have led now to the militarization of the political conflict, with 
dead bodies dumped in the streets each night and grenade attacks 
occurring almost daily. A normal day in Bujumbura starts with the 
counting of the night's death toll.
Why the Burundi crisis matters
    Even beyond the the humanitarian tragedy unfolding in Burundi, the 
regime now looks more and more like a failed police state. There is 
violent and open confrontation between armed government forces and a 
large opposition consortium, also increasingly armed. President 
Nkurunziza and the leaders of the ruling party are bunkering 
themselves; the economy is barely functioning (according to the IMF, 
GDP will have shrunk by 7.2 per cent this year); many businessmen and 
women, civil society leaders and journalists are out of the 
country;security institutions are politicized and divided. The 
stability of Burundi is in jeopardy with dangerous regional 
consequences.
    Regional spillover no longer is just a threat, but a reality. 
Population flight already has produced a refugee crisis with several 
hundred thousand Burundians fleeing across the country's borders in 
eight months. The formal refugee numbers, undoubtedly understated, of 
215,000 include 70,000 in Rwanda, more than 100,000in western Tanzania 
and the rest in DRC and Uganda. Serious tensions with Rwanda include 
the severing of diplomatic ties and Kigali accusing Burundi of 
tolerating the presence of Rwandan Hutu FDLR (Democratic Forces for the 
Liberation of Rwanda, an armed militia that may still include former 
genocidaires) and Bujumbura accusing Kigali of recruiting, training and 
arming Burundian refugees in refugee camps in Rwanda.
    The pattern of violence changed immediately following the 
reelection of president Nkurunziza. Targeted assassinations of key 
personalities in both camps have taken place (General Nishirimana, 
Colonel Bikomagu, an assassination attempt of Pierre Claver Mbonimpa, a 
well-known human rights activist, and the recent murder of one of his 
sons; and another attack on the army chief of staff) along with mortar 
attacks against the presidential palace. Both sides are radicalizing. 
Government officials are reviving the rhetoric from the civil war of 
1993-2005. The president made public an ultimatum giving the 
``criminals'' seven days to lay down arms. Reverien Ndikuriyo, the 
Senate president, cryptically warned on 1 November that the police 
would soon go to ``work'' and asked district heads to identify 
``elements which are not in order''. The language is unambiguous to 
Burundians and chillingly similar to that used in Rwanda in the 1990s 
before the genocide. The opposition is organizing in exile and a 
platform was created in Addis Ababa by politicians (including the 
moderates from the ruling party), civil society leaders and former 
military officers. The present patterns of violence are a reminder of 
what happened before the civil war broke out in 1993. For the 
Burundians, the story is repeating itself. This deja vu feeling and the 
memories of the civil war are the reasons why so many of them have left 
their country.One of the fundamental reasons why this crisis matters 
for Burundi, Africa and the international communities is that it 
challenges the Arusha peace agreement of August 2000 that was 
painstakingly negotiated during four years to bring peace to a country 
where 300,000 had died in more than a decade of conflict. That accord, 
negotiated with the facilitation of two African presidents (President 
Julius Nyerere and President Nelson Mandela) and endorsed by the U.N., 
AU, US France and the EU, institutionalized political and ethnic power-
sharing between Hutu and Tutsi. The Arusha agreement explicitly 
mentions the two-term limit for presidents (article 7). While there had 
been a long list of violations of the Arusha agreement since its 
signing and a failure in the constitutional review attempt of 2014, it 
was the violation of the no third term provision that was the straw 
that finally broke the camel's back.
    In its report Bye Bye Arusha, written in 2012, Crisis Group warned 
that the ruling party was distancing itself from the Arusha agreement 
and listed all the violations of the peace accord. The CNDD-FDD never 
genuinely adhered to its principles and blocked the implementation of 
those which were detrimental to its monopoly of power. For instance, it 
discarded the creation of a special tribunal to deal with the crimes of 
the civil war and opted only for the creation of a truth and 
reconciliation commission whose work has not even started. Indeed the 
issue of post-conflict justice has remained the elephant in the room 
during the two mandates of president Nkurunziza who has been granted 
provisional amnesty. The present crisis also has demonstrated another 
critical violation of the Arusha agreement: the politicization of the 
security forces. The ruling party gradually distanced itself from the 
Arusha agreement because most Arusha guarantors did not follow up on 
their commitments to long-term political engagement and resorted to a 
near completely private diplomatic approach without firm consequences 
until very recently, despite clear signs of authoritarian actions and 
violation of the Arusha accord.
    One of the most glaring failures by Arusha sponsors was not 
enforcing respect for the results of international mediation. Mediation 
brokered a deal for the return of the opponents in exile in 2013 with 
the view of making the 2015 elections inclusive. Special envoys from 
the U.S., the EU, Belgium, France, the UK and other countries also 
enabled a dialogue led by the U.N. special envoy between the opposition 
coalition and the government to try and bring peace during street 
protests earlier this year. However, the aim of an inclusive electoral 
process was gutted by Nkurunziza's insistence on running for a third 
term. The mediation was officially handed over to the Ugandan president 
Yoweri Museveni this past summer but, despite informal consultations, 
no meeting has happened yet under his chairmanship. The resumption of 
the dialogue is the only option at this stage but only informal 
consultations have been held and the most that is hoped is that a 
meeting may happen before the end of the year.
    As Burundi's civil war was ended by an agreement negotiated by 
African leaders, Western governments have again waited for an African 
solution, i.e. a regionally mediated dialogue. Unfortunately, times 
have changed. South Africa has disengaged from Burundi and its present 
government seems disinterested in preserving Mandela's legacy. The East 
African Community (EAC) has been mandated to find a solution but is too 
divided. In addition, its chief mediator, Ugandan President Museveni, 
in power since 1986, is himself busy with the preparation of elections 
in early 2016.
    U.S. President Barack Obama's 27 October decision to exclude 
Burundi from the ``African Growth and Opportunity Act'' is an important 
signal of the U.S.'s growing concern, but it is not enough. The African 
Union (AU) Peace and Security Council (PSC) has been most outspoken in 
demanding an end to violence and a resumption of a facilitated 
dialogue, issuing a strong communique and threatening the use of an 
African Union intervention force, but does not want to bypass president 
Museveni and the EAC.Right now the westerners are waiting for the AU, 
the AU is waiting for president Museveni and the people of Burundi are 
waiting for the end of violence. If there is no regionally mediated 
dialogue, the likely scenarios include: a new coup attempt, the 
emergence of a guerilla force in the countryside and/or a large scale 
repression against the rebellious districts of Bujumbura.Another reason 
why what happens in Burundi matters is it could set a dangerous 
precedent among its neighbors. While there are substantial differences 
in each of its neighbors where the third term issue also is a matter of 
dispute, the potential for political unraveling appears greatest in the 
DRC where a third term for its president Joseph Kabila constitutes a 
similar violation of the peace agreement and the DRC constitution.The 
way forwardThe resumption of the dialogue between the opposition and 
the government is absolutely essential. This implies the formation of 
an international mediation team with AU, EAC, International 
organization of the French speaking countries (IOF), U.N. 
representatives, supported by the U.S. and the EU with additional 
sanctions against those responsible for egregious violence, like those 
the U.S. announced last week--to put pressure on the reluctant 
stakeholders.The agenda of the internationally mediated dialogue should 
be open and it should include the Arusha agreement. As the stumbling 
block of the post-conflict regime, the Arusha agreement is the 
reference point in every political discussion about Burundi but a frank 
discussion is needed about the future of the Arusha agreement and its 
values that have underpinned the hard-won peace in Burundi. The Arusha 
agreement is at the core of the Burundi crisis and therefore it must 
not be taboo. Some 15 years after its signing it is legitimate to ask 
whether some changes--but only if adopted consensually--are needed.
    The U.N. should be planning, if an AU led peace implementation 
mission cannot be deployed quickly to bring MONUSCO's FIB into action 
if there is a need to halt atrocities. In addition, the AU should be 
examining how it could replace Burundian troops in AMISOM if that 
becomes necessary. In addition, the AU, the U.S., UK and other 
concerned members of the international community should quietly stress 
to the Rwandan and new Tanzanian governments that they must play more 
constructive roles.
    The wait-and-see attitude of the international community during the 
past four years is part of the reason why the crisis has brought us to 
this point. There is now urgency for more coherent and determined 
international action to halt the country's further disintegration and 
expanded violence within and beyond Burundi's borders.


    Senator Flake. Thank you.
    We now turn to Vigny Nimuraba.

    STATEMENT OF SIXTE VIGNY NIMURABA, DEAN'S ASSISTANT AND 
    DIRECTOR OF VIOLENCE PREVENTION PROGRAM, THE SCHOOL FOR 
  CONFLICT ANALYSIS AND RESOLUTION, GEORGE MASON UNIVERSITY, 
                      ARLINGTON, VIRGINIA

    Mr. Nimuraba. Chairman Flake, Ranking Member Cardin, 
members of the subcommittee, thank you for the invitation to 
appear here today to discuss the political and security crisis 
in Burundi. I thank also the School for Conflict Analysis and 
Resolution at George Mason University.
    I am Burundian, and I just returned. This testimony 
reflects the discussions I had with key stakeholders, as well 
as common Burundians, from all sides--different people, 
different understandings of the crisis, different approaches to 
resolution.
    From the government perspective, a core pillar of Arusha 
Accords is ethnic quotas, and this remains unquestionable by 
both government and opposition in Burundi. Virtually everyone 
agrees that it is still a good thing to have security forces 
made up of 50 percent Hutu and 50 percent Tutsi troops. 
Although the population is actually divided into approximately 
85 percent Hutu and 15 percent Tutsi citizens, the government 
holds to the principle of 40 percent Tutsi and 60 percent Hutu 
staffers at any administrative leadership posts in the country.
    Burundi's leadership has called upon all organizations, 
national and international, to check and make sure they respect 
those ethnic quotas to reflect the makeup of the population.
    One of the major achievements of the past 15 years is the 
power of unity over ethnic divisions. The Burundian people can 
distinguish ethnic groups from political and personal 
interests.
    It is widely agreed that Burundian people need peace. 
People in the countryside do not care about presidential terms 
or nuances of constitutional law. While some people want 
economic support, such as chemical fertilizers or seeds, others 
want jobs and equal opportunities.
    The capital city is the place where the political classes 
live. That may be the reason why there is violence now, and 
that has a lot to do with our own history.
    Current government leaders see Western countries as denying 
the principles of democracy and sovereignty of Burundi. There 
is an underreported cold war competition between the two major 
powers, China and Russia on one side and the West on the other. 
Exploited mineral resources like nickel and uranium play a 
major role in that commercial conflict.
    The concept of genocide is being invented to show that the 
situation is chaotic and, therefore, to call for external 
military intervention. It is, however, critical that atrocity 
prevention efforts take seriously the specific context in which 
violence is unfolding.
    The current government is not opposed to dialogue. 
Inclusive dialogue has started among all Burundians. This 
dialogue will continue with members of the diaspora. However, 
the dialogue will not include people who were involved in the 
failed coup of May 2015.
    In dealing with people involved in the protests, the first 
group made up of underage prisoners has been released and the 
Red Cross was in charge of bringing them back to their 
families. Yesterday, around 100 youth involved in the protests 
were released, and the African Union was present at that 
release.
    People were released after completing a civic education 
program. This initiative will continue, and it needs to be 
supported.
    Finally, the government has issued a strong request that 
all people involved in the process of addressing the current 
crisis to visit the whole country and see how different some 
suburbs of Bujumbura look in comparison to other areas, if they 
wish to write accurate reports on Burundi.
    The opposition's major motivation to fight is unequal 
opportunities. There is some kind of collaboration between the 
youth who fighting with some current army forces. The only way 
peace can be restored is if opposition can be involved in the 
discussion and dialogue, which would be inclusive. That must 
take place in a safe zone.
    Religious leaders, especially the Catholic Church, are 
calling both parties to dialogue without pushing too hard.
    Civil society operates under fear. Civil society requests 
the government to stop the immediate act of harassment, 
intimidation, and arbitrary detention against members of civil 
society organizations, journalists, and other human right 
activists and peace-builders, as well as members of their 
families.
    Burundian civil society would like to see the establishment 
of an independent and rigorous inquiry in order to establish 
responsibility for the violence observed in Burundi since April 
2015.
    There is a problem is the new education system--bachelor, 
master's, doctorate--which was launched with insufficient 
studies in terms of implementation and transition from the 
previous system.
    Some week-long basic workshops were conducted to equip 
educators with skills to teach new courses, such as English, 
Swahili, music, and arts. Educators themselves testify, 
however, that they did not learn enough to allow them to teach 
those courses adequately.
    The deteriorating education system is a real threat to 
security in Burundi. If young people do not have access to good 
education and consequently to good jobs, no matter how hard we 
work to address the current issue, violence will remain and 
will not cease.
    Rwanda has an active role in the Burundi crisis. Hopefully, 
the international community will request Rwanda to stop such 
tactics. Other counties such as Tanzania, DRC, and Uganda have 
also a major role to play, they can really act and stop 
violence in Burundi.
    Some of the recommendations include the need to improve the 
economy, job creation, investment, and opportunities for youth 
and other people who are able to work.
    Second, we should improve education programs, both long-
term and short-term, with regard to peace education.
    Post-traumatic stress disorder is a continuing problem in 
Burundi. We need to create a substantial program of trauma 
healing that will be implemented nationwide. This would also 
include nonviolence activities and teaching.
    Some other suggestions: one, help the government disarm all 
militia, regardless of political affiliation; two, request the 
government to restore the freedom of expression, allowing 
private media to reopen; three, allow civil society to operate 
freely and to reopen the bank accounts that have been frozen 
for investigation purposes, and this goes along with training 
of civil society personnel and journalists to improve the 
capacity for reporting and acting responsibly; four, strengthen 
the African Union human rights observers and require them to 
have toll-free phones to allow every Burundian to reach them 
and to report misconduct; five, urge the Burundian Government 
to have conflict resolution experts working with the national 
commission for dialogue to focus on long-term goals and 
sustainability of peace in Burundi; six, urge the Rwandan 
Government not to continue its interference in the Burundian 
crisis and, if necessary, put in place some sanctions against 
Rwanda; seven, provide generous humanitarian support to all 
displaced and support an extensive campaign for refugees to 
return to Burundi once security is restored; finally, pressure 
and sanctions will not work but will radicalize parties to the 
conflict in Burundi. The U.S. and the international community 
should look for other ways, other collaborative ways, to 
address the current issue.
    Thank you.
    [The prepared statement of Mr. Nimuraba follows:]


               Prepared Statement of Sixte Vigny Nimuraba

    Chairman Flake, Ranking Member Markey, members of the subcommittee:
    Thank you for the invitation to appear here today to discuss the 
political and security crisis in Burundi.
    By way of background, I currently serve as the Dean's Assistant and 
Director of Violence Prevention for the Genocide Prevention Program / 
GPP in the School for Conflict Analysis and Resolution (S-CAR) at 
George Mason University (GMU), where I am also pursuing a doctoral 
degree. I have had extensive experience working with Burundian civil 
society and non-governmental organizations to promote peace, conflict 
prevention, social cohesion, and integration of returnees in local 
communities.
    During my four-year tenure with Ligue Iteka, the oldest and largest 
civil society organization in Burundi, I collaborated closely with 
UNHCR and other national and international human rights organizations 
to foster peaceful coexistence. In my capacity as regional coordinator 
within Ligue Iteka's Monitoring of Returnees Project, I first 
coordinated resettlement and social cohesion activities in five 
northern provinces (Ngozi, Kirundo, Kayanza, Muyinga and Karusi) and 
was then promoted to the position of southern regional coordinator, 
covering the provinces of Makamba, Bururi, and Rutana, which together 
had a significantly larger population of returnees and a remarkably 
larger number of land conflicts to mitigate.
    Before joining Ligue Iteka, I held different positions in local and 
international organizations such as VISPE, Care International, and 
CNLS. This work inspired my passion to dedicate my life to the quest 
for peaceful coexistence and social cohesion in Burundi and the African 
Great Lakes region, which eventually brought me to this hearing room 
today.
    Mr. Chairman, in your letter of invitation to present this 
testimony, you posed questions in three broad areas of interest. First, 
what have I learned during my recent trips to Burundi about the 
perspectives of average citizens toward the current political situation 
and prospects of violence that may disrupt their lives? Second, what 
have I learned in discussions with members of the government and 
opposition parties about how Burundi can prevent further political 
violence and move toward a clearer path of reconciliation? And third, 
how do I perceive the role of Burundi's neighbors in the region to 
facilitate the peace process, diffuse tensions, and get the country 
``back on track''--plus what role can the United States and other 
international partners play in improving the situation?
    I would like to address each of these issues separately, although 
you may see some overlap in the discussion. While these are preliminary 
thoughts, I will be happy to answer your questions and provide 
clarification or additional information today or in writing later to 
supplement the hearing record.
    A core pillar of Arusha Accords is ``ethnic quotas'' and this 
remain unquestionable by both government and opposition in Burundi. 
Virtually everyone agrees that it is still a good thing to have 
security forces made up of 50 percent Hutu and 50 percent Tutsi troops. 
Although the population is actually divided into approximately 85 
percent Hutu and 14 percent Tutsi citizens, the government holds to the 
principle of 40 percent Tutsi and 60 percent Hutu staffers at any 
administrative leadership post in the country, from the presidency to 
the administration of the smallest entity, which is the ``hill'' 
(administration collinaire). Burundi's leadership has called upon all 
organizations, national and international, to check and make sure they 
respect those ethnic quotas, to reflect the make-up of the country's 
population.
    One of the major achievements of the past fifteen years is the 
power of unity over ethnic divisions. The Burundian people can 
distinguish ethnic groups from political and personal interests. After 
decades of artificial segregation, the Arusha Accords and subsequent 
constitutional and legal reforms successfully brought Hutu and Tutsi 
together to work in the same office, to plan and implement projects 
jointly, to govern and to be governed together. At the end of the day, 
the Burundian people discovered that any leader can be good or bad 
regardless whether he is Hutu or Tutsi. Now the majority of Hutu and 
Tutsi know that they have the same destiny and therefore must struggle 
together and celebrate what they have together. This shared struggle 
that both Hutu and Tutsi now experience is, however, endangered by a 
small number of older people who retain vivid memories of ethnic hate 
the violence it spewed. These few sadly try to embed their fears among 
younger generations. Our hope is that newer generations--today's young 
people and their children and grandchildren--will remain united and 
refuse to inherit the dangerous ideology of the past.
    It is widely agreed that the Burundian people need peace. Yet, as 
in most countries, many people among the government and among the 
opposition claim that the majority of the populace supports their own 
cause. Yet the reality is that both Hutu and Tutsi have bad memory of 
the civil war. They still remember human and material losses caused by 
that war and they would not like to see this happen again. People in 
the countryside do not care about president terms or the nuances of 
constitutional law. They likely know nothing about what the Arusha 
Accords say about the president's term limits; what they remember is 
that there has been a popular president who does community service with 
them and who plays soccer with them.
    The people's desire for peace is reflected in how many armed people 
have been caught and denounced by other citizens, as was the case in 
Muyinga, Kayanza, Cibitoke, Bujumbura, and elsewhere. The Burundian 
people do not want any fellow citizens to be left behind because he may 
endanger the sustainability of peace that they reached the hard way. 
What they say when you ask them is, ``Can you please tell our leaders 
to ask what the opposition needs and share some of the parliamentary 
seats with them? They should give them something of political value so 
that politicians do not lead us into another civil war''.
    Another question that should be raised is why the violence is 
mainly occurring only in few discrete areas, especially in some suburbs 
of Bujumbura, the capital city. One answer is that the capital city is 
the place where the political classes live. Since independence in 1963, 
the ruling class and their families have taken advantage of the 
opportunity to move to Bujumbura to seek an even better life than what 
they had in their home towns. It was the best place to live for people 
doing business, military families, and people searching for both 
government and private-sector jobs. This was also related to the how 
land distribution had been done in the past few decades, as well as 
property leasing requirements, rent-to-buy procedures, and so forth.
The Arusha Accords--The Burundian people's engagement for unity and 
        forgiveness
    Although the 2005 Arusha Accords did contribute to peace in 
Burundi, most of the work was done by the people themselves. The Arusha 
Accords were a blessing from both the international community and 
leaders of the then-opposition and President Buyoya's administration. 
In effect, the Arusha Accord was more about power sharing than peace 
and reconciliation per se--although all those were components of the 
agreement.
    What outside observers tend to forget is that the Burundian people, 
no matter what side they were on as the civil war approached its end, 
were exhausted. They were tired of war and daily killings and fighting 
that had been occurring for more than 12 years. People started to ask 
the fighters to engage in dialogue that could bring peace back, Hutus, 
on one side, were pressing rebels to stop violent means and start 
negotiations with the government; on the other side, Tutsi were also 
demanding the Tutsi-dominated army and government to find ways of 
talking with the rebels in order to stop the violence.
    Even before and during the civil war, there were many communities 
that had already overcome ethnic divisions. Some Hutus had started to 
help Tutsis whose houses were destroyed to make bricks and help them 
return to their properties. The only Tutsis who remained in internally 
displaced person (IDP) camps were those who had direct ties with people 
involved in leadership position, those with business activities, and 
several others who were better off compared to the rest of Burundian 
population. Those wealthy families decided either to rent houses for 
their IDP families in cities and suburbs, because they had financial 
means to support them from there. Other Tutsi families returned or had 
already returned to their native towns and villages and were 
interacting productively with Hutu residents on a daily basis.
    For Hutu communities, the majority of them had also left 
regroupment camps (camps de regroupements) which were established by 
the government in order to separate innocent people from those who were 
then called rebels.
    Before the Arusha agreements, there were Hutu and Tutsi communities 
which had already started to share lives and to help each other, 
letting go the past ethnic conflict and the losses it caused. 
Burundians were thirsty for peace, unity and reconciliation.
    Some major achievements must be acknowledged:


   a. With the return of security, people do not spend nights in the 
            bush or in holes fearing military attacks or rebel group 
            attacks

   b. Hutus and Tutsi live together; no matter what has been said, all 
            ethnic groups remain united

   c. Most of the Burundian people are less interested in politics, 
            term limits, and leadership positions, but more on economic 
            opportunity and their survival.

   d. Little by little, people are realizing that very few leaders, if 
            any, are more sincerely interested in the people's 
            wellbeing and interests than they are in their personal 
            goals, in most cases financial interests. There are no more 
            leaders who love and care about their people.

Different people, different understanding of the crisis, different 
        approaches to resolution
    Current government leaders see few policy issues dividing 
government from the opposition. For them the problem is between the 
current government and Western countries that are denying the 
principles of democracy and sovereignty of Burundi.There is an 
underreported cold war competition between the major powers--China and 
Russia on one side and the West on the other. Unexploited mineral 
resources like nickel and uranium play a major role in that commercial 
conflict. Exploration for minerals is being performed by two Russian 
companies. The government, however, is now open to sharing extraction 
with any other countries, especially since it became clear that the 
minerals from Nyabikere and Waga are more numerous than it was 
previously believed. There is so much to extract that more than one 
company can be granted a concession.
    According to current Burundian leaders, the country does not have 
only one option (a partnership with the United States and European 
Union). It has also another option to partner with Russia and China in 
different sectors. Even if it may require some time to decide how to 
construct such an alignment, it is not politically or commercially 
impossible.
    The army was able to contain violence when some armed groups 
attacked from Cibitoke in December 2014 and, more recently, when a 
group of armed fighters came from Rwanda entering through Buyumpu and 
Kabarore. Note that around 200 fighters were arrested during the 
operation in Kibira, where those groups were heading.
    The concept of genocide is being invented in minds of the 
opposition to show that the situation is chaotic and they therefore 
call for external military intervention. As Michael Broache of the 
University of Tampa and Kate Cronin-Furman of Stanford University noted 
in the Washington Post on November 15, Burundi's situation is ``not, 
nor will it ever be, `another Rwanda.' It's critical that atrocity 
prevention efforts take seriously the specific context in which 
violence is unfolding. Crying 'genocide' instead of calling it what it 
is--political violence, with the possibility of escalating into crimes 
against humanity--does nobody any favors, least of all the victims.'' 
In response to calls for military intervention, Patrick Hajayandi of 
the Institute for Justice and Reconciliaton wrote in the Daily Maverick 
on the same date that ``Foreign military intervention could potentially 
cause a tense situation to become incendiary. A military intervention 
is likely to radicalize both parties, and pit them against each other, 
creating an all-out civil war.''
Views of the government
    The tension between Burundi and other countries as well as the 
international community started when some countries issued statements 
that scheduled elections could not take place because there were no 
required conditions for them to be ``fair.'' Despite the withdrawal of 
international support, the elections for parliament and president took 
place nearly on schedule and the government is ready to maintain that 
achievement through any means.
    In contrast to what many people say, the current government is not 
opposed to dialogue. Inclusive dialogue has started among all 
Burundians and this dialogue will include members of the diaspora. The 
government, however, insists that dialogue is not the same as 
negotiation. Neither will the process of dialogue include people who 
were involved in the failed coup of May 2015.
    In terms of openness of the current government, the government put 
the international community as well as diplomatic missions in Burundi 
on notice that they should state clearly whether they recognize the 
current government or not. If one country makes it clear that it 
supports and recognizes the current government, meetings for diplomats 
or foreign government officials at any level of the country's 
leadership will be made easier. Some information about a plan to kill 
the president and some highly positioned leaders has been circulated, 
explaining why there are restrictions on who can see the president.
    Some good initiatives have been taken by the government. A group of 
teenagers who were caught during the protests as well as some people 
arrested during the Kayanza attacks are or have been attending civic 
education training workshops in Rumonge. After their training is 
complete, they will be sent back home, where, it is hoped, they will 
make positive contributions to their communities.
    The first group made of underage prisoners has been released and 
the Red Cross was in charge of bringing them back to their families. 
This civic education program will continue and needs to be supported.
    For adults who are going through trials because of their 
involvement in the protests, coup, and armed group attacks, there is a 
window of opportunity for amnesty, but this necessarily will happen 
after their trials are complete, as a matter of due process.
    Finally, the government has pointed out that people working in 
embassies and other diplomatic missions do not even go to the suburbs 
of Bujumbura, in order to inquire what the reality on the ground is. 
This has resulted in many statements being made based on faulty or 
biased information. The government has issued strong requests that all 
people involved in the process of addressing the current crisis to 
visit the whole country and to see how differently the suburbs of 
Bujumbura look in comparison to other areas, if they wish to write 
accurate reports on Burundi.
Views of the opposition
    Despite the fact that I was unable to meet with the leaders of the 
opposition in Burundi, I had interesting and informative conversations 
with members of opposition groups and political parties. It was 
explained to me that the major motivation to fight is unequal 
opportunities that were given to former fighters. While some people 
were demobilized, another group was left alone even if they were 
promised to be called later; it appeared that no one cared about them 
after all.
    I heard that the rebellion has structures and that it has members 
from all ethnic groups and includes youth from some suburbs of 
Bujumbura who were trained during or after protests. I learned that 
there is close collaboration with some security forces currently active 
within the government.
    One opposition member I met said that, reflecting on his life 
experience, he is convinced that, no matter what negotiations come up 
with, he will not hand his gun back, unless he is properly demobilized 
because he was lied too many times and he wants to see his life and the 
life of his family back on track with good economic standing. He still 
complains about the fact that he and some of his colleagues received 
nothing more than tennis shoes and a radio as demobilization package. 
He concludes that his colleague in the field will not accept any 
decision from the negotiation, because they want to have a 
representative to the negotiation whose holds, at the very least, the 
rank of lieutenant.
Religious leaders, civil society, and educational institutions
    Religious leaders, especially the Catholic Church have noticed that 
it is not easy for them to operate in an environment in which they 
announced publicly their opposition to President Nkurunziza's third 
term. As damage control, they are calling both parties to dialogue 
without pushing too hard. They are also trying to cope with the current 
situation and regain trust because it is the only way they can have 
their word listened to by both the government and the opposition.
    Civil society operates under fear. There are some facts that cannot 
be addressed in the near future and, therefore, instead of taking 
extreme positions, those operating in Burundi try to cope with the 
situation and report with more nuanced analysis to the extent that they 
can. Civil society requests the government to stop immediately acts of 
harassment, intimidation and arbitrary detention against members of 
civil society organizations, journalists and other human right 
activists and peacebuilders, as well as members of their families 
carrying out their activities in a risky environment.Burundian civil 
society would like to see the establishment of an independent and 
rigorous inquiry in order to establish responsibility for the violence 
observed in Burundi since April 2015 and apply any criminal, civil or 
administrative sanctions applicable under the law
    Conditions in educational institutions at every level have 
deteriorated and may continue to get worse if no urgent support is 
brought to the country. People I talked to in education unanimously 
agreed to the following:
    There is a general absence of highly educated people in Burundian 
politics. This may have been due to the many years of civil war, 
destruction of education facilities, death of experienced educators, 
and use of force by students to get good grades instead of getting them 
based on merit. This was noticed in many schools, where instructors 
were killed or forced to allow students to graduate even when the 
students did not fulfill the course requirements. The other component 
is that, many people got positions because they fought the war 
militarily and this was a reward for the efforts they made in the bush, 
even if they were not otherwise qualified to do the job.
    The other major problem is the new education system Bachelor--
Masters- Doctorate (LMD, or Licence, Maitrise, Doctorat) which was 
launched with insufficient studies in term of implementation and 
transition from the previous system. People in education leadership 
with whom I spoke were desperate and shared with me the complexity of 
the situation. They are not very sure where students graduating from 
the ninth grade will go, they worry that the country does not have 
instructors who can teach courses such as art, music, and drawing, 
among other teacher shortages.
    Some week-long basic workshops were conducted to equip educators 
with skills to teach new courses such as English, Swahili, Music, and 
Arts. Educators themselves testify, however, that they still did not 
learn enough to allow them to teach those courses adequately.
    Finally, some school principals who were dismissed from their 
leadership position and demoted to teach as basic instructors with the 
new system, prefer to abandon the job entirely. This has put education 
in a dire situation.
    I personally see the deteriorating education system as a real 
threat to security in Burundi. If young people do not have access to 
good education--and consequently to good jobs later--no matter how hard 
we work to address the current issues, violence will never cease. It is 
a good thing to call for investments and job creation in Burundi to 
hire thousands of educated and non-educated youth, but this will only 
provide ``negative peace'' insofar as we will not have put in place 
structures that guarantee better education for all in Burundi.
The role of neighboring countries
    Throughout the history, Burundi and Rwanda have been following the 
same trajectory. They either engage in peace together or they get in 
trouble at the same time. Courageous analysts have denounced the 
negative role that Rwanda has been playing in the current crisis in 
Burundi. It was not until President Kagame, announced it publicly that 
the international community started to see how Rwanda has an active 
role in the Burundi crisis. Hopefully, Rwanda will be soon pressured to 
abandon that strategy. Other countries also such as Tanzania, 
Democratic Republic of the Congo and Uganda have a major role in 
stopping current violence. I am convinced that if all the leaders of 
the region commit themselves to the cause for peace in Burundi and talk 
to all the parties in conflict in Burundi through unofficial ways, the 
current issue will be addressed soon. The problem is that some actors 
want to use the force and pressure as well as ``rule of law'' as way to 
address the conflict. Unless we understand that a gun makes stronger a 
gunman and that humble and smooth approach to the gunman can convince 
him to put down his weapon before innocent lives are lost, we will not 
address the current Burundi conflict.
Recommended actions
    I have several recommendations for actions on the part of the 
international community, including Burundi's partners in the United 
States and other countries.
    First, we need to improve the economy (job creation, investment and 
opportunities for youth and other people who are able to work). A big 
investment plan, not necessarily like the Marshall Plan but sized to 
fit Burundi's specific needs, will not only promote sustainable peace 
and security in the country, but will also improve the stability of the 
region as a whole.
    The United States should invest in that small country, because even 
if it does not have the natural resources equivalent to the DRC or 
Angola, its high number of active men and women can either be a real 
asset to grow the economy or they can be a real threat to the region 
and to the world, if joining terrorist or rebel groups offers better 
pay and opportunities. The announcement that Burundi will be excluded 
from AGOA is troublesome in this regard, as well as the fact that 
competing countries in the region are open to U.S. (and other foreign) 
investment and may snatch opportunities from Burundi's hands in a way 
that is not beneficial to the entire region, economically or 
politically.
    Second, we should improve education programs (both long- and short-
term with regard to peace education). The long term would improve 
people's thinking as well as providing leaders who are highly educated, 
sparking well-strategized leadership and innovative ideologies. We need 
to make sure the new education model (LMD) is supported sufficiently 
and experts are sent to Burundi to do capacity building in teaching 
some courses such as English, art, Swahili, and so forth.
    PTSD is a continuing problem in Burundi, so, third, we need to 
create a substantial program of trauma healing that would be 
implemented nationwide. This should incorporate a new type of trauma 
healing approach that would have different layers of activities 
depending on the roles and responsibilities each person has. The same 
program should be in some ways included in the peace education 
curriculum that is needed in schools.
    This would also include nonviolence activities and teachings. For 
several generations, the Burundian people have considered violence as 
the only alternative to deliver themselves and to help them reach their 
goals. If new generations are not taught that nonviolence can play a 
major role in the transformation of systems as well as helping people 
reach their goals peacefully, it will still be hard for them to reach 
sustainable peace.


    Some other suggestions:

   1. Help the government disarm all militias regardless of political 
            affiliation

   2. Request the government to restore the freedom of expression, 
            allowing private media (newspapers and radio) to re-open

   3. Allow civil society to operate freely and without fear of being 
            arrested and reopen soon their bank accounts that have been 
            frozen for investigation purposes. This goes along with 
            training of civil society personnel and journalists to 
            improve their capacity for reporting and acting responsibly

   4. Start extensive campaigns calling refugees to return to Burundi 
            because they are living in inhumane conditions in camps, 
            where the information they get is mostly is biased by 
            political views which overly dramatize the situation in 
            Burundi

   5. Strengthen the African Union's human rights observers and require 
            them to have toll-free phones to allow every Burundian to 
            reach them and report misconduct

   6. Urge the Burundian government to have conflict resolution experts 
            working with the National Commission for Dialogue, to focus 
            on long-term goals and sustainability of peace in Burundi

   7. Sternly urge the Rwandan government not to continue its 
            interference in the Burundian crisis and, if necessary, put 
            in place some sanctions against Rwanda


    Mr. Chairman and members of the subcommittee, I thank you for this 
opportunity to speak to you today and I will be happy to answer any 
questions you have and to engage in a productive and informative 
discussion with my fellow witnesses.


    Senator Flake. Thank you.
    Thank you again for the testimony.
    We have been joined by the ranking member, Senator Cardin. 
So let me ask a few questions before turning to him.
    Mr. Siegle, in your prepared remarks, you mentioned that 
part of what might have motivated Nkurunziza to run for 
reelection is people encouraging him to move away from the 
Arusha Accords, as they seem to be too harsh on the Hutus here.
    If that is the case, moving back to the Arusha Accords, is 
that going to satisfy the president and his followers? Or will 
the same underlying problems as they see them remain, that this 
accord is too restrictive on their rights?
    Dr. Siegle. Well, I think absolutely that is the central 
issue here. What we have seen really is a split within the 
ruling party, the CNDD-FDD.
    As with most of the major political parties in Burundi, 
since Arusha, there has been a commitment to a multiethnic 
coalition-building approach to politics. That is why there was 
some hope that we would see a genuine transition this year.
    But I think it has been, over the last year especially that 
hardliners in the CNDD-FDD have resisted that transition. They 
do see an opportunity to break out of Arusha, which through 
ethnic quotas has limited the influence that Hutus can have, 
and they feel that that is their rightful position to have 
greater influence within the party and outside.
    So I think that is exactly what they are hoping for. They 
want to break Arusha. They want the third term, and then 
rewrite the political rules under the auspices of some sort of 
national dialogue and that way be in a much stronger position 
for a hard-line Hutu position.
    So I think absolutely they will be resistant to moving back 
to Arusha.
    Senator Flake. Mr. Vircoulon, you mentioned that the 
regional spillover conflict is not just a threat, it is now a 
reality. Can you talk more about that in terms of refugees and 
other issues, in terms of the regional aspect of this crisis?
    Mr. Vircoulon. Thank you, Chairman.
    Indeed, as we sit, there are more than 200,000 refugees in 
basically 9 months, Burundians who fled their country. Most of 
them are in western Tanzania. About 70,000 of them are in 
Rwanda. The rest are between eastern Congo and Uganda.
    What we have seen since the beginning of this refugee 
crisis is, of course, some cross-border security problems that 
have increased with Rwanda, also with the Democratic Republic 
of Congo. As it has been said previously, there have been some 
credible reports about recruitment in the refugee camps. So 
those are security problems that have already emerged because 
of the refugee crisis.
    Of course, there are also some very serious humanitarian 
problems. There was an outbreak of cholera in western Tanzania 
in June and July that was fortunately contained by the 
humanitarian NGOs. But as the flow of refugees is going to 
increase, we are likely to see these kinds of epidemics start 
again in western Tanzania and also probably in south.
    The other very important humanitarian problem that I must 
mention is food and security. Burundi is a country that has 
been suffering from food insecurity for a long time now. With 
this crisis, agricultural production is declining in the 
country. There are reports by humanitarian organizations that 
the people have more and more troubles in the countryside to 
find food. So I think the World Food Program is already making 
a contingency plan for that.
    Senator Flake. Mr. Nimuraba, you had mentioned that you 
would not advocate sanctions against the regime. Does that 
include travel sanctions against members of the regime or 
economic sanctions? What are you particularly warning against?
    Mr. Nimuraba. I say that because sanctions really do not 
have any impact, because people who are targeted rarely travel. 
That is first. And second, when you approach somebody with 
sanctions, you do not approach him. You kind of put a barrier 
between the person and yourself. Then people either from the 
opposition or from the government will be less likely to get 
involved in any kind of dialogue or conversation to find a 
common way, because once somebody is already targeted, he will 
try to protect himself.
    As you can see in the Burundian history, many people have 
been accused of many kinds of mass atrocities and killings and 
human rights violations who have been protecting themselves. 
Some of the problems that we are facing come from that aspect; 
people try to protect themselves. The more we put pressure on 
them and add more sanctions, the more they will strengthen 
their contentious tactics and keep more people around them to 
make sure they are strong and safe enough to resist any kind of 
invasion or attack from outside.
    Senator Flake. Thank you.
    Dr. Siegle, I asked Assistant Secretary Thomas-Greenfield 
about the tipping point between political struggle and pure 
ethnic conflict. When will we hit that tipping point? What are 
the warning signs we ought to look for?
    Dr. Siegle. Well, I think that is the tension that we are 
facing. And I think as Assistant Secretary Thomas-Greenfield 
mentioned, one of the noteworthy observations about what has 
happened so far is the degree to which Burundian society has 
largely resisted going down that path.
    Senator Flake. It is always underlying.
    Dr. Siegle. Not only that, but I think the government has 
actively tried to play it up. But I think it is important from 
an external engagement standpoint to recognize that many people 
in the opposition, including CNARED, the political alliance 
that has been created out of Addis Ababa, they are mostly Hutu. 
These are people who were prominent within the CNDD-FDD.
    To the extent that the political opposition is seen as 
being multiethnic, it can help defuse the impulse to break down 
into those ethnic groupings.
    So I think the question will be to what extent do the 
region's international actors appear that they are going to 
help be a part of this process, so that in the end people on 
the ground do not feel that they have to revert back into those 
categorizations.
    Senator Flake. Thank you.
    Senator Cardin?
    Senator Cardin. First, I want to thank Senator Flake for 
calling this hearing. I guess most Americans would have a hard 
time finding Burundi on the map, but what is happening there is 
of great concern. I think this hearing is extremely important, 
so that we understand that there are people at risk every day, 
and the numbers are growing.
    We put a great deal of confidence in the Arusha Accords 
because it dealt with some of the fundamental problems of the 
country--constitutional reform, protecting the rights of the 
minority, dealing with proper representation within the 
military, limitations on terms of the president. The 
international community felt that those provisions were the 
framework for long-term peace in the country.
    There are lots of challenges, as you all point out. I 
understand the concern about sanctions. But there is also a 
concern that if there are no penalties that you just encourage 
that type of horrible conduct.
    We never want to jeopardize the delivery of humanitarian 
assistance. So we never look at those areas, but we do look at 
matters that can be empowering corruption to make sure that we 
do not encourage that.
    I guess my question is, I was very disturbed, Mr. Siegle, 
when you said that the president's desire to run for a third 
term was in a way an attempt to undo the Arusha Accords. Of 
course, after that, he then instituted many repressive 
practices within the country, taking away the rights of many of 
the people of the region. Now if he is rewarded by the 
reconfiguration of the Arusha Accords, it seems to me that is 
not the way we move forward.
    So I am trying to figure out how we bring about peace for 
Burundi, protecting the integrity of what was behind the Arusha 
Accords, so at the end of the day, those who are responsible 
for the atrocities are not rewarded and there is some hope for 
long-term stability in the country.
    Try to give me a roadmap as to how you see us moving 
forward. What has happened has happened. I for one do not want 
to give up on the Arusha Accords.
    What are the most important immediate steps to be taken to 
end the risk factors for the population and to get us back into 
a framework where we can have a lasting peace in the country? 
Give me your priorities. What are the first two or three things 
we have to do?
    Dr. Siegle. I will start, and then I am sure my copanelists 
will want add in.
    I think what we want to be doing is both offering a roadmap 
as well as putting pressure on the government. I think it is 
clearly evident over the past----
    Senator Cardin. And the roadmap is not the Arusha Accords 
or it is?
    Dr. Siegle. Arusha is the framework. I think when I talk 
about roadmap, it is how to get back to Arusha. So Arusha is 
the goal. It is the framework. We have veered off of that, so 
how do you get back on to that?
    It is clear, with all the decisions that Mr. Nkurunziza and 
his allies have made over the last 9 months, that they are 
willing to take the country down the tubes in order to try to 
retain their hold on power, so they are only going to respond 
to strong pressure.
    Senator Cardin. So what is that strong pressure?
    Dr. Siegle. I think there are several things. First is I 
think we do need to more actively support a move toward a 
transitional government that the current Burundian Government 
does not see as a focal point for the political dialogue in 
Burundi. We have seen in Burkina Faso, in Mali, in Guinea, that 
there needs to be a technocratic-based political government 
comprising all parties whose goal it will be to bring us back 
to a point of elections that will allow for a resumption----
    Senator Cardin. I follow that, but what pressure can the 
international community bring to bear to cause the government 
to move in that direction?
    Dr. Siegle. There are a couple of other things that I would 
put out there.
    One is a push for a peacekeeping force. We were talking 
about this in the earlier panel, a potential Chapter VII 
mandate for a peacekeeping force to go into Burundi. I think, 
again, if the regional international community demonstrates 
enough commitment, that force would not have to be a peace 
enforcement force. I think they could be sent in as 
peacekeepers to keep the sides away from each other.
    I think it is important to keep in mind that the conflict 
in Burundi right now is not a typical conflict of two organized 
armed factions. These are hit-and-run types of attacks, 
assassinations.
    So an early, strong international military presence can 
help provide a buffering influence. It will then also isolate 
the Burundian Government.
    I think the role of the ICC is important here, too. We 
already saw with the open letter sent by the ICC prosecutor 
indicating that actions taken in Burundi, the inflammatory 
language that was being used, would be highly scrutinized and 
be used as evidence in any subsequent ICC investigation.
    I think by making that clear, that there are going to be 
costs to be paid, it will be another way of exerting pressure.
    Mr. Nimuraba. Thank you. With respect to everybody's 
analysis, I would like to say that I strongly disagree with 
this idea of having a transitional government, because if you 
see how the current government has been trying to work kind of 
work hard to keep the power of the country even when the 
situation was not easy, I do not think this idea of a 
transitional government would work; suggesting transitional 
government may bring back another civil war and this war may be 
worse than what we are seeing now.
    For me, a good approach is first started by us. What we do 
is to change the approach as I said not to issue a statement, 
but to go in a kind of nice way to request, ``We really need A, 
B, C from you, the government.''
    Those kinds of requests that we bring to the government can 
include asking the government to integrate people from the 
opposition. We have many people in Rwanda and everywhere who 
are really strong leaders, if we can negotiate with them in a 
nice way. We are dealing with people who have been fighting for 
more than 20 years, and many have post-traumatic stress 
disorder or something like that. We need to make sure we 
understand that.
    If we approach them in a nice way and then request them to 
do some kind of concessions, that will allow us not only to 
have those people fearing for their security to come back to 
Burundi and also to be integrated into the government. That 
would really reduce the tensions. That is one side.
    For the other side, I talked to people who are fighting. 
The major concern for them is to be able to survive 
economically. Along that line of effort, if we have some kind 
of economic incentive to bring them to work and to give them 
some kind of job that would motivate them to abandon violence 
practices and contribute to peace, development and nation 
building.
    But if you see how hard the positions are, I do not think 
any transition will really work. Thank you.
    Senator Cardin. Mr. Vircoulon?
    Mr. Vircoulon. Senator, in terms of priority action, I 
think the dialogue, the international dialogue is very 
important and this dialogue must be an opportunity to discuss 
the Arusha agreement. I can elaborate on that later.
    Senator Cardin. Dialogue for the purposes of modifying?
    Mr. Vircoulon. Of making some adjustments and changes. I 
think the Arusha agreement, indeed, has been the stumbling 
block of peace and of the new regime. But I have been in 
conversations with the people from the ruling party over the 
past 5 years and they have always been very clear. Their view 
has always been very clear about the fact that this is now a 
15-year-old peace agreement and the political situation has 
changed in the country. So they always wanted to make some 
adjustments.
    I think that sometimes conflict starts because a 
conversation does not happen. Actually, what I think has been 
missing in Burundi over the past 5 years is that conversation 
about the Arusha agreement. I think if we want to have lasting 
peace in Burundi, we have to facilitate this discussion and 
find middle ground between those who want to make changes and 
adjustments to the Arusha agreement and those who want to keep 
it.
    It is clear that there are some key principles in the 
Arusha agreement that must not be changed. I think that 
probably the most important provisions in the Arusha agreement 
are those that have not been implemented. I am thinking about 
the logistics provision of the Arusha agreement because the 
provisional--I mean, a lot of political leaders in Burundi now, 
and I think it is very important to know that, benefit from 
provisional amnesty and, therefore, the crimes of the civil war 
have never been addressed.
    I fully agree with the idea of a peacekeeping force and the 
planning for a peacekeeping force. MINUSCO, the largest 
peacekeeping force in the world, is just at the border of 
Burundi. Of course, the U.S. Government can help to identify 
those who are responsible for the violence and adopt some 
targeted sanctions.
    But I think there is leverage that is at this stage very 
important. It is the participation of the Burundian army to the 
mission in Somalia. I think this is a very important leverage, 
given the number of troops and given the financial support that 
Burundi gets for that mission. I think this leverage should 
also be used.
    Senator Cardin. Thank you. Thank you all very much.
    Thank you, Mr. Chairman.
    Senator Flake. Mr. Vircoulon, talking again about the 
regional aspect of this, is the United States playing a 
constructive role in making sure that this does not spill over 
any further in the region? If not, what more could we be doing?
    Mr. Vircoulon. I think the United States has been quick to 
look at the situation in Burundi. Unfortunately, I think some 
of the statements that were made at the beginning of this year 
by the United States should have been made a bit earlier.
    But now I think it is very important that the 
administration keeps talking to all the stakeholders in the 
region and I think keeps helping the African Union to be in 
charge of the mediation.
    There is clearly a diplomatic impasse at the moment between 
the African Union and the East African Community. As it was 
said, President Museveni is in charge of the mediation, but 
this mediation does not seem to go anywhere. But there is still 
a reluctance, actually, to transfer the mediation.
    I think the United States should advise and help with the 
transfer of that mediation from President Museveni to the 
African Union. As I said, I think it is better to have a 
collective mediation led by the African Union.
    But it is clear that, on the diplomatic side, the United 
States can help convince some stakeholders to transfer the 
mediation from President Museveni to the African Union.
    Senator Flake. Let me just drill down a little further, 
when you are talking about going back into the Arusha Accords 
and adjusting, it can be really only the 60/40 kind of split. 
Is that what you are talking about? Or the term limits on the 
president? What aspects of the Arusha Accords are most critical 
to adjust, in terms of the ruling party? Are those the two 
items that they are really concerned about?
    Mr. Vircoulon. Well, I think they are very concerned about 
the fact that you have that 60/40 percentage rule, indeed, but 
also the 50/50 percent rule in the security forces. We must 
remember that actually some counting has been done recently 
concerning the number of Hutu and Tutsis in the security 
services. It indicates maybe the warning signs you were 
referring to earlier about the ethnic dimension of that 
conflict.
    So it is a very important, I think, to address those issues 
and not just to push them aside and think that they must not be 
taken into consideration. It has been a very long-term claim by 
the CNDD-FDD rulers to review that agreement, and they tried to 
do it with a constitutional review in 2014 and did not manage 
to do it.
    So I think instead of them dismantling the accord, which is 
what they have started doing for many years--and we wrote a 
report in 2012 that was titled ``Bye-Bye Arusha?'' to explain 
the process. So instead of having them dismantle the accord de 
facto and trying to impose a constitutional review next year, I 
think it would be much better to have a discussion to reach a 
consensus about what must be adjusted and changed in this 
agreement.
    Of course, this can only be decided by the Burundian 
stakeholders themselves. So I think the role of the 
international community should just be to facilitate this 
discussion.
    Senator Flake. Dr. Siegle, do you have any thoughts on 
that?
    Dr. Siegle. I do. First, I would reiterate that the 
commitment to Arusha was actually quite strong within the CNDD-
FDD, and there were 130 senior officials within the party who 
wrote a petition to Nkurunziza in April requesting that he not 
seek a third term and that he respect the terms of the Arusha 
Accords.
    So when we talk about people wanting to break out of 
Arusha, it is not the entire party. It is the remnants of the 
CNDD-FDD. It is the hardliners that want this. We have to 
recall that even back into the early stages of the negotiation 
in the 2000s, there were members and entities within the CNDD-
FDD that did not want to sign. They were late in signing. So 
there has always been resistance. That will continue to be 
there.
    But I think within Burundi society writ large, there is 
actually quite a lot of pride in the Arusha Accords. It has 
provided them a pathway for a multiethnic democratic society, 
and we see that within the political sphere. We see that within 
civil society. We see it within the military, which has made 
great progress in moving toward a multiethnic and professional 
force.
    So I think, by and large, the benchmark within Burundi 
society more generally is very supportive of Arusha, and they 
see this as a way to move past the ethnic politics of the past.
    I do think that there is concern when we talk about 
reopening Arusha. That is exactly what the government will want 
to do. It is, I think, a very clever negotiating tactic. ``Let 
us have a national dialogue. Let us talk about things we need 
change.'' And the real goal there is to water down these terms 
that have helped move the country forward.
    I would add to what Thierry mentioned. In addition to the 
justice sector, one of the major flaws, one of the things 
missing in Arusha, was the police, the intelligence services, 
the gendarmerie were not included, so they have remained 
politicized. Those are the mechanisms that the government has 
used to try to push forward its political agenda.
    Senator Flake. Yes, Thierry?
    Mr. Vircoulon. Chairman, indeed, I can only agree with Dr. 
Siegal. The whole CNDD-FDD party was not against the Arusha 
agreement. I think the problem now is that most of the 
moderates have left the ruling party. Those who are in control 
of the party now are opposed to the Arusha agreement and its 
principles.
    I do not want any misinterpretations or misunderstandings 
about what I said previously. I think it is important to have 
the discussion about the Burundians, and the discussion about 
the Arusha agreement, that they did not have really before. I 
think, of course, it must be done in a consensual way. And the 
outcome of the discussion must be, of course, a consensus among 
all the stakeholders.
    I think the CNDD-FDD rulers have mentioned that they were 
not at the negotiation table when the accord was negotiated 
between 1996 and 2000. Therefore, that is very often the reason 
why they say they were not part of that negotiation and we do 
not like some of the provisions of the accords.
    So this must be taken into consideration, if we want to 
have a substantial dialogue about this crisis in Burundi.
    Senator Flake. Thank you.
    Yes?
    Mr. Nimuraba. Thank you. I think there are some kinds of 
issues that we do not discuss but which are really more 
important, because when we try to deal with the current issue, 
we need to see where we are and the kind of forces we are 
facing.
    Coming back to the Arusha Accords, I think it is clear that 
I do not ignore the kind of manipulations that have taken place 
for the past year, but the issue was not of the Arusha Accords, 
but the interpretation of the Arusha Accords in terms of terms. 
If the opposition and the ruling party agree on several aspects 
of the Arusha Accords, the only issue was the interpretation.
    The problem started, when the constitutional court decided 
that President Nkurunnziza had the right to run for another 
term. The understanding of the Constitution remains the main 
issue. Now we need to see how to move forward with that aspect. 
Thank you.
    Senator Flake. Thank you.
    I appreciate the testimony that has been given. This will 
help us as we formulate policy and move forward and work with 
the State Department and the administration on U.S. policy 
toward Burundi and the region. So I appreciate it.
    For the purposes of members and their staff here, the 
record will remain open until the close of business on Friday, 
including for members to submit questions for the record.
    So as they submit these questions, if you could answer 
promptly, that would be appreciated. That will be part of the 
record.
    Senator Flake. With the thanks of the committee, the 
committee stands adjourned.
    [Whereupon, at 4:08 p.m., the hearing was adjourned.]


                              ----------                              



              Additional Material Submitted for the Record

responses to questions for the record submitted to assistant secretary 
         linda thomas-greenfield by senator benjamin l. cardin
    Question.  Last week, U.S. Special Envoy to the Great Lakes Tom 
Perriello stated that Burundi ``is facing a real possibility of civil 
war.'' What concrete contingency plans have the region and the rest of 
the international community made to respond to the outbreak of 
conflict?

    Answer. The United States has encouraged the African Union to 
undertake contingency planning efforts, and we have been in contact 
with other likeminded partners concerning the need for a coordinated 
response in the event the crisis in Burundi devolves into a civil war. 
We are also encouraging the United Nations to work with the African 
Union on contingency planning.


    Question. On December 5, a New York Times article suggested that 
opposition members are stepping up attacks on the government to cast 
the government in a bad light, and pressure it to engage in dialogue. 
Have the international community's diplomatic efforts provided a 
perverse incentive for violence from the opposition?

    Answer. We have consistently condemned all violence, whether 
committed by government or non-government actors, and called upon all 
stakeholders to commit without preconditions to participating in 
internationally-mediated talks. We remain convinced that an inclusive 
and internationally-mediated dialogue provides the best route for 
reaching a consensual and sustainable solution to this crisis. UN and 
AU statements have similarly condemned all parties whose actions have 
undermined the peace and stability of Burundi. The sanctions regimes 
imposed by the United States and European Union have named both 
government and opposition actors, all of whom have been involved in 
either government-sponsored violence against the civilian population 
and other human rights abuses, involvement in the coup attempt in May 
2015, or involvement in supporting violent anti-government acts in 
Burundi since the coup. We will continue to work with our international 
partners to press all parties to refrain from violence, and to commit 
to serious engagement in the internationally mediated dialogue, the 
ultimate objective is which is to develop a consensus path forward to 
return Burundi to the path of stability and peace it was on before 
President Nkurunziza opted to pursue a third term in office contrary to 
the provisions of the Arusha Peace and Reconciliation Agreement that 
ended the Burundian civil war.


    Question. The same New York Times report mentions claims by people 
on the ground that they are part of a resistance movement called the 
``Abajeune.'' Are we aware of a youth wing of the armed opposition, and 
what does its existence portend as relates to the security situation on 
the ground?

    Answer. There are multiple anti-Nkurunziza armed groups. The 
Abajeune developed as a general term for young people involved in 
demonstrations against the government; it is not, to our knowledge, the 
name of a specific armed group. The Abajeune are, however, primary 
targets for recruitment into the multiple anti-Nkurunziza armed groups. 
The most obvious armed group recruiting Abajeune is the Movement for 
Solidarity and Democracy (MSD) headed by Alexis Sinduhije. Many members 
of the Abajeune are compensated by the anti-Nkurunziza opposition for 
their activities, a particular enticement as most were unemployed 
before being recruited by opposition groups and becoming involved in 
anti-government demonstrations.
    The ruling party, the CNDD-FDD, has a youth wing known as the 
Imbonerakure that also has been known to arm some of its members. To 
the extent that young men are readily persuaded to engage in violence, 
their recruitment by both the ruling party and by opposition groups 
will make it even more difficult to restore stability to Burundi.


    Question.  The East African Community has designated Ugandan 
President Yoweri Museveni as the point man to end the current political 
crisis, but progress has been slow. The late Howard Wolpe, who served 
as Chair of the Africa subcommittee in the House, and who also served 
as Great Lakes Special Envoy, wrote in 2011 about previous regional 
efforts to bring about peace in Burundi, ``With the benefit of 
hindsighta it appears that regional sponsorship of the Burundi peace 
process was not an unmitigated blessing. The belligerent parties saw 
several of the regional states as partisans of one side or the other 
and were therefore less inclined to trust the neutrality and 
professionalism of the regionally sponsored facilitation.''
    Is there mistrust of the Ugandans and/or Rwandans by Burundian 
actors? If not, why haven't the talks commenced? What is the 
international plan to overcome objections of the parties to a dialogue?
    Burundi is reportedly due to take over as chair of the East African 
Commission at the next Heads of State summit and lead the organization 
for the next year. What is the EAC's intention with regards to the 
rotation? What impact will it have on diplomatic efforts?

    Answer. We have conducted extensive outreach at the highest levels 
around the region, and inside Burundi, urging the immediate start of an 
internationally-mediated dialogue. The recent dramatic increase in the 
levels of violence have underscored the urgency in starting the 
dialogue, but distrust among the regional states remains a challenge to 
the success and legitimacy of the Ugandan-led dialogue. Special Envoy 
Perriello and the other members of the international Great Lakes Envoy 
team have offered to observe the dialogue, as the international 
community has done during previous peace processes. We continue to work 
closely with the AU and regional heads of state to ensure that the 
parties come to the table willing to engage in serious dialogue aimed 
at putting Burundi back on the path toward stability that the Arusha 
Peace and Reconciliation Agreement ushers in over a decade ago. 
Opposition members have now stated their readiness to come to the table 
without preconditions. We are working with the region to pressure 
President Nkurunziza to ensure high-level participation by the 
government throughout the process.

    Burundi is scheduled to take the chair of the East African 
Community (EAC) in 2016. Tanzania is the current chair of the EAC. 
While civil society organizations in East Africa have called for 
Burundi not to assume the chair until it resolves its political and 
human rights crisis, the EAC has not taken any action concerning the 
chairmanship. Any decision concerning the chairmanship will be made at 
the next summit of the EAC heads of state, which will take place in 
early 2016.


    Question. On October 17, the African Union (AU) Peace and Security 
Council issued a communique which asked the AU Commission to ensure 
that Burundian ``members of the defense and security forces involved in 
human rights violations and other acts of violence do not take part in 
AU-led peace support operations.'' Five thousand of the 20,000 troops 
in the AU mission in Somalia are Burundian. What is our contingency 
plan if we find--for whatever reason-- the Burundian contingent must be 
pulled out of Somalia?

    Answer. AMISOM, the peacekeeping mission in Somalia, is organized 
and led by the AU. If AU member states decide to pull out the Burundian 
contingents in AMISOM, we would encourage other capable countries to 
fill in the gap. The AU leadership is seized with this issue.


    Question. The AU Commission deployed human rights monitors and 
military experts to Bujumbura to ``monitor the human rights situation 
on the ground and report violations of human rights and international 
humanitarian law, and to verify, in collaboration with the Government 
of Burundi and other concerned actors, the process of disarming the 
militias and other armed groups, respectively.'' The AU Peace and 
Security Council asked that the number of monitors and military expects 
be increased, and appealed for additional resources to support their 
mandate.
    What is the status of the agreement between the AU and the 
government of Burundi on deployment of human rights monitors and 
military observers? Are they able to fulfill their mandate both within 
and outside the capital? What will their mobility accomplish and how 
will this further regional aims?
    Have we made any contribution to support the deployment? What else 
are we doing to assist with efforts to put in place mechanisms for 
accountability?
    Are monitors collecting evidence and documenting abuses for 
possible prosecution?

    Answer. The human rights monitors and military observers are in 
Bujumbura, but there have been numerous delays by the Burundian 
government in permitting them to begin their work, including the 
government's demand that a memorandum of understanding (MOU) be 
concluded with the AU. While the MOU remains unsigned, the AU informs 
us that the monitors are able to perform at least some of their 
mandated duties and have reported on the deteriorating security and 
humanitarian situation in Bujumbura and the surrounding areas. The 
security situation on the ground in Burundi also prevents the monitors 
from moving outside of the capital.
    In addition to the sanctions announced on November 23, we are 
prepared to consider additional sanctions in an effort to hold 
accountable those responsible for exacerbating the crisis and 
committing violations of human rights. We support the EU's sanction 
regime and the African Union's consideration of sanctions.
    Furthermore, USAID is currently providing funding to the Office of 
the United Nations High Commissioner for Human Rights for its Burundi 
Country Office to allow them to fulfill their mission to monitor human 
rights. This is an additional mechanism to the work of the AU team.


    Question. We have spent at least $200 million training and 
equipping the Burundian military for deployment in AMISOM, MINUSCA, and 
for counterterrorism efforts. And yet we have spent no money to support 
democracy and governance activities in the past several years.
    Why haven't we invested in democracy and governance programs in 
Burundi?
    To your knowledge, have we ever supported accountability efforts, 
grassroots reconciliation or democracy and governance programs in 
Burundi? What have such programs achieved?

    Answer. The U.S. government has supported and continues to support 
democracy, human rights and governance programs (DRG) across Burundi. 
USAID has a long history of supporting reconciliation programs 
responding to the aftermath of the civil war as well as other potential 
emerging drivers of conflict, including land disputes. USAID is also 
engaged in advancing respect for human rights and monitoring human 
rights violations throughout Burundi. The focus on the possibility of 
atrocities in the run up to the 2015 elections prompted an increase 
starting in 2013 in DRG and other resources for activities in Burundi.
    USAID funds programs to promote grassroots reconciliation, reduce 
the potential for conflict, and promote human rights. Through these, 
the United States supports conflict mitigation and resolution programs 
focused on youth and other potential conflict drivers. These programs 
aim to create a space for constructive dialogue between political and 
civil society leaders and encourage collaborative youth participation 
in problem-solving, community development, and reconciliation 
activities within their communities.
    USAID previously provided support to the Ministry of Good 
Governance through the Burundi Policy Reform program, providing 
technical and material assistance to the Ministry in the planning and 
launch of the government-wide accountability in public administration 
campaign. This program also worked with women leaders and provided 
technical assistance to the process of revising the land code. 
Accountability and transparency were strengthened through support for 
the development of a communication strategy to inform citizens, 
taxpayers, stakeholders, and employees of why the Burundi Revenue 
Authority was created; how it would perform its duties effectively; 
and, how it would solicit feedback from customers and response to their 
concerns.
    We have engaged many times with members of the government, civil 
society, and victims' organizations to craft credible mechanisms and 
approaches to address Burundi's legacy of mass atrocities, promote 
accountability, and engender reconciliation. True accountability often 
means shining a light in dark places and uncovering truths many would 
prefer to leave alone. However, we are also aware that if the legacy of 
mass atrocities is not addressed in a way that allows societies to seek 
justice and to address the root causes of violence, there is a high 
risk of repeating the violations and abuses of the past.


    Question. On November 23, the President issued an Executive Order 
which imposed sanctions of four individuals who were deemed to have 
taken actions that, among other things, threaten the peace, security or 
stability of Burundi.
    What do we expect our sanctions to accomplish?
    Did we collaborate with the European Union, or the African Union on 
determining when to impose the sanctions, and upon whom we imposed 
them? Would such collective action have a significant impact?

    Answer. Executive Order 13712, signed by President Obama on 
November 23, is a signal that there are serious consequences for 
anyone, whether in the government or the opposition, who exacerbates 
the crisis by promoting violence. We will continue to assess the 
application of sanctions to other individuals, including anyone found 
to be providing support to individuals already listed.
    We supported the EU's early use of sanctions, and are in regular 
contact with them about next steps to support a resolution of this 
conflict. We have commended the AU's threat of sanctions and welcome 
the continued consideration of AU sanctions, which would have 
particular weight as they could restrict the ability of sanctioned 
individuals to travel within the region.


    Question. In recent months, there have been widespread reports of 
fragmentation and desertions within the military. There have also been 
concerns that Burundian soldiers deployed to the AMISOM mission in 
Somalia have gone for months without pay. Some analysts are concerned 
that the return of 5000 disgruntled soldiers from Somalia could lead to 
the further deterioration of the situation on the ground.
    Where are deserting soldiers going and what effect do we expect the 
desertion to have on the security situation?
    Are Burundian soldiers being consistently paid by the government?

    Answer. While the Burundian military is still one of the more 
professional institutions in the country, the ongoing crisis is 
reportedly affecting the morale of many soldiers, especially those 
currently deployed outside Burundi. There are also increasing reports 
of the ruling party (the National Council for the Defense of Democracy, 
Forces for the Defense of Democracy, or CNDD-FDD) using the relatively 
undisciplined and untrained Imbonerakure militia as part of the 
country's deployed force to Somalia alongside police and military, 
which further impacts the morale of professional soldiers. We are 
seeing increasing reports of desertions and would expect this trend to 
continue, with some deserters possibly joining the armed insurgency, 
and others becoming either refugees in neighboring countries or 
internally displaced persons. Donors have cut considerable assistance 
to the Burundian government since the start of the crisis in April, and 
the rising conflict has sent the local economy into freefall. The 
Burundian government is running out of cash on hand, and it is 
uncertain how long it can continue to pay the salaries of not just its 
security forces, but other civil servants as well. To date, we have 
received conflicting reports regarding the payment of salaries to 
members of the military, an issue we are consistently tracking.
responses to questions for the record submitted to sixte vigny nimuraba 
                     by senator benjamin l. cardin


    Question. There has been more than one documented instance of 
ethnically-based mass killings in Burundi since independence. Hundreds 
of thousands have been murdered in systematic, deliberate attacks based 
on ethnicity going back over 40 years. Article 8 of the 2000 Arusha 
Accords calls for a National Truth and Reconciliation Commission to be 
established. A draft law for the TRC's establishment was not even 
submitted until 2011.
    What is the status of the Commission, and how has the delay 
affected reconciliation in Burundi?

    Answer. The Truth and Reconciliation Commission was finally 
established on December 4, 2014. Its mission is to investigate and 
establish the truth about the serious violations of human rights and 
international humanitarian law committed during the period from the 
date of independence on July 1, 1962 until December 4, 2008, the date 
marking the end of the period of belligerence.
    However, the Commission faces several problems. All of its members 
were appointed by the President and are from the ruling CNDD-FDD party. 
Opposition parties boycotted the entire process. The law establishing 
this Commission omitted the judicial provisions created by the Arusha 
Agreement and instead stressed forgiveness as a basis for its work. 
This undermined the goal of establishing responsibility as a basis to 
root out impunity as required by the Arusha Accords. The law includes 
no provision for protection of witnesses but instead threatens them 
with punishment if they give false testimony. Furthermore, a 2004 law 
blocked dissemination of the final TRC report. The main effect of these 
weaknesses in the establishment of the TRC is to reinforce an attitude 
of impunity that remains deeply embedded in the culture of Burundian 
political leaders.
    Consistent with the political nature of the conflict in Burundi, 
the issue of inter-communal reconciliation is seen as less urgent as 
there is a general openness of Hutus and Tutsis to live together 
cooperatively. Even now, despite the attempts by hardline elements of 
the CNDD-FDD to stir up ethnic animosities, there is not an intrinsic 
hatred between groups.


    Question. Is the current political turmoil in part a result of this 
delay?

    Answer. Delays in establishing the Truth and Reconciliation 
Commission have contributed to the current crisis--more by reinforcing 
the perception of impunity rather than by fostering a lack of 
reconciliation among ordinary Burundians, however. This Commission was 
established outside the framework created by the Arusha Agreement. 
Accountability for war crimes and crimes against humanity was a major 
obstacle during the Arusha negotiations and the issue nearly led the 
talks to collapse. The principal parties to the Agreement, and later 
the Ceasefire Accords, including CNDD/FDD, had all been implicated in 
serious war crimes, including the crime of genocide. If the 2005 
National Assembly elections had been held strictly within the 
provisions of the Arusha Agreement, all the prospective candidates, 
including Pierre Nkurunziza, would have been ineligible for office. The 
parties, therefore, reached a grand bargain to put aside reconciliation 
provisions and focus their energies on the power sharing protocols. 
Fearing the prospect of collapse, mediators relented but nevertheless 
included a separate provision establishing temporary immunity from 
prosecution during the transitional period. This immunity however 
became a defacto permanent amnesty after the transition. It has created 
a climate where leaders feel that they can get away with serious crimes 
and this contributes to the kind of human rights violations we have 
seen since the current crisis erupted in April 2015.


    Question. How could the international community better ensure that 
issues of accountability are not ignored as we implement peace 
agreements?

    Answer. It's important to keep in mind the context in which these 
peace agreements are being implemented. Post-conflict environments are 
typically starting from a base of very weak accountability institutions 
and are subject to constant pushback--and setbacks. (An analysis of 
democratization transitions over the past two decades, for example, 
shows that more than half of these efforts experience at least one 
episode of backsliding). International actors must be prepared for this 
pushback and be willing to sustain their engagement over time in order 
to work through difficult periods. (Of those democratic transitions 
that have had setbacks, two-thirds resume a positive trajectory within 
three years).
    Experience from contexts where accountability structures have 
emerged from cultures of impunity highlight the importance of 
establishing multiple layers of accountability rather than relying on a 
single entity or focal point--which can be more easily circumvented or 
coopted. Central among these layers are the roles played by the media 
and civil society organizations. The impetus and persistence in the 
push for accountability reforms (often a decade or more long process) 
typically comes from these non-state organizations, particularly until 
state accountability structures can be created. International actors 
also have a priority role to play in developing accountability norms in 
these early stages.
    Ensuring space for civil society and media is protected, therefore, 
is a key priority reducing the likelihood that issues of accountability 
are ignored in peace agreements. Doing so protects the forums where 
such sensitive issues can be discussed publicly. Formalizing the role 
of civil society in fostering accountability in peace agreements can 
help validate and sustain such civil society engagement. Stipulating 
that civil society provides an annual assessment of progress on 
accountability processes is one mechanism for doing this.
    While counter-intuitive, international actors can enhance the 
implementation of accountability objectives of peace agreements by 
accepting the need to leave a heavier footprint. The responsibilities 
of external guarantors of peace agreements do not end with the signing 
of the agreement but must be sustained for the subsequent years until 
accountability mechanisms are institutionalized. External actors must 
also be more emboldened to call out spoilers to the implementation of 
these accountability measures. The tendency is for external partners to 
defer too quickly to state authorities without recognizing the very 
nascent levels of state formation often in play. Linking funding 
support to continued progress in implementing accountability measures 
can provide further focus to these issues. Incentives for cooperation 
can also be created with commitments by external partners for increases 
in funding support when certain accountability thresholds are achieved.
    In the case of Burundi, the transitional power-sharing settlement 
reached by leaders who were themselves implicated in such crimes, was 
based on the minimum common objective that their ability to secure 
government office would guarantee temporary immunity. This is one of 
the weaknesses of the Arusha Accords. None of the leaders at the 
negotiating table was clean. They put their political differences aside 
to reach a mutual decision to loosen the Arusha Agreement's 
accountability provisions. The mediators accepted this because the 
Agreement was faced with the serious risk of collapsing. This should be 
a key lesson going forward. If a genuine and inclusive peace process 
gets underway, the international community should insist on revisiting 
the issue of accountability as provided for by the Arusha Agreement. 
Reluctance to accept such accountability measures explains why the 
CNDD-FDD is currently intent on establishing and driving its own 
internal peace process.


    Question. United Nations Security Council Resolution 1606 adopted 
in June 2005 calls for the Secretary General to enter into negotiations 
for a ``mixed Truth Commission and a Special Chamber within the court 
system of Burundi.''
    What is the status of the establishment of the Commission and the 
Special Chamber, and how has that impacted political events in Burundi?
    What steps have Burundians themselves undertaken to promote 
reconciliation and healing?

    Answer. There has not been progress in establishing the Special 
Chamber. It was meant to be a support structure embedded inside 
Burundi's judicial system to provide the competence necessary to handle 
war crimes and crimes against humanity. These are always difficult 
issues requiring extremely good capabilities (forensics, anthropology, 
law, public affairs, research, etc.) It would most likely have been 
modelled after a similar Chamber that was established in the Uganda 
High Court.
    There was little political will to begin with in the Burundian 
government to establish a process that it could not control. 
Accountability for war crimes is an extremely sensitive issue in 
Burundi because it supports and discredits key political narratives. 
The hardline Hutu narrative, which is now being revived by the ruling 
party, stresses the genocide against Hutus in 1972, while the hardline 
Tutsi narrative, which has been dormant since 2005, stresses the 
genocide against Tutsis in 1993. Neither narrative accepts its own 
responsibility for mass atrocities.
    The relationship between the Burundian government and the UN hit an 
all-time low in response to a leaked UN report in July 2014 alleging 
government recruitment of its youth militia, the Imbonerakure, in 
preparation for the 2015 elections. This culminated in the closure of 
the UN Mission in Burundi. These tensions with the UN shut down any 
prospect that the government would allow the establishment of the 
Special Chamber. Indeed, the establishment of the Truth and 
Reconciliation Commission in December 2014 was heavily driven by a 
desire by the government to hold off international and UN involvement 
in establishing an accountability framework.
    In the absence of political will and leadership and an enabling 
environment, Burundians have relied on alternative mechanisms of 
reconciliation and survival. After the Arusha Accords were signed, a 
strong civil society, comprising hundreds of organizations, developed 
in Burundi. Private media also played a critical role. Before the May 
2015 crackdown on independent media, Burundi was one of the most 
developed countries in the Great Lakes region from the perspective of 
independent media and the freedom of expression. This greatly 
facilitated public discussion on taboo subjects like ethnicity.
    Traditional restorative justice practices in which the 
bashingantahe, or community elders, guide mediation processes between 
parties in conflict were also commonly employed. These were seen as 
effective because they were rooted in the local culture and reconciled 
people at the village level in a relatively inexpensive manner.
    Efforts by non-governmental organizations (including initiatives 
led by the late Howard Wolpe, Search for Common Ground, and Catholic 
Relief Services) have also been effective. Training across almost 400 
peace committees throughout Burundi has facilitated grassroots 
reconciliation. The peace committee approach has engendered willing 
participation from all social groups (Hutu, Tutsi and Twa communities).
    Indeed, the progress Burundian society has made over the past 
decade in establishing an inter-ethnic civil society is one of the 
reasons the current deterioration is so tragic. Notably, depth and 
cohesiveness of civil society is a key predictor for democratic 
resiliency and sustaining governance reforms. This holds out hope that 
if Burundi can avert slipping back into open civil war, the process of 
recovery could rebound relatively quickly. Along those lines, Burundian 
women's groups have been in Kampala this week advocating for 
accountability and reconciliation provisions to be incorporated into 
the mediation process.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
